<html>
<title> - OVERSIGHT HEARING ON REALIZING THE POTENTIAL OF HYDROPOWER AS A CLEAN, RENEWABLE AND DOMESTIC ENERGY RESOURCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   REALIZING THE POTENTIAL OF HYDROPOWER AS A CLEAN, RENEWABLE AND 
                       DOMESTIC ENERGY RESOURCE

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       Wednesday, April 27, 2016

                               __________

                           Serial No. 114-40

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                ____________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-956 PDF                     WASHINGTON : 2016                        
________________________________________________________________________________________          
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  
         
          
          
       
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                              -----------
                              
                              
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 27, 2016........................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     7
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Boyd, Steve, Director of Water Resources and Regulatory 
      Affairs, Turlock Irrigation District, Turlock, California..    14
        Prepared statement of....................................    16
        Questions submitted for the record.......................    20
    Matlock, Jessica, Director of Government Relations, Snohomish 
      County Public Utility District No. 1, Everett, Washington..    29
        Prepared statement of....................................    31
        Questions submitted for the record.......................    34
    Pavel, Mary, Attorney, Sonosky, Chambers, Sachse, Endreson & 
      Perry, LLP, Washington, DC.................................    20
        Prepared statement of....................................    22
    Powell, Debbie, Senior Director of Power Generation 
      Operations, Pacific Gas and Electric Company, San 
      Francisco, California......................................     9
        Prepared statement of....................................    10
        Questions submitted for the record.......................    13
                                     


 
OVERSIGHT HEARING ON REALIZING THE POTENTIAL OF HYDROPOWER AS A CLEAN, 
                 RENEWABLE AND DOMESTIC ENERGY RESOURCE

                              ----------                              


                       Wednesday, April 27, 2016

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 1324, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Gosar, McClintock, 
LaMalfa, Denham, Newhouse; Huffman, Napolitano, Costa, and 
Torres.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order.
    The subcommittee meets today to hear testimony on an 
oversight hearing entitled, ``Realizing the Potential of 
Hydropower as a Clean, Renewable and Domestic Energy 
Resource.''
    We will begin with opening statements, starting with 
myself.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today's hearing will delve into the topic of 
America's largest source of renewable energy: hydropower. 
Harnessing the power of moving water has been around since 
Greek civilization. But modern hydropower as we know it began 
in the 1880s with engineering innovations here in America. It 
helped transform our country by electrifying both urban and 
rural communities. Large-scale dams even helped us win World 
War II by powering the factories needed to build the armaments 
necessary to defeat our enemies.
    Even my home state of Louisiana benefits from hydropower, 
with rural communities continuing to receive hydropower 
generated regionally from Army Corps of Engineers dams and from 
other sources. There is vast potential for new hydropower 
facilities throughout Louisiana and the rest of the country.
    [Slide]
    Dr. Fleming. According to this Oak Ridge National 
Laboratory 2013 map depicted on the screen, up to an additional 
12,100 megawatts of hydropower on existing non-power dams alone 
could be added to our electricity mix. That is a 15 percent 
increase from our existing hydropower capacity. According to 
this map, much of that could come from the Mississippi 
watershed and east. That is not to say that all of these 
facilities could or should be built due to a number of factors, 
but we clearly have room to grow.
    Despite all of this potential, the former director of the 
Federal Energy Regulatory Commission's Energy Projects 
testified before this committee a few years ago that 
hydropower's growth is ``stagnant.'' He cited a non-partisan 
Energy Information Administration report that found that there 
was no net increase in hydropower capacity in the last decade. 
He compared this to the growth of natural gas facilities, even 
when gas prices were high, and noted that the market simply 
ignored hydropower. His extensive experience led him to 
conclude that ``the issue of dispersed decisionmaking, as 
represented by multiple agencies with mandatory conditioning 
authority . . . should be considered as a primary reason for 
the complete lack of progress'' in hydropower development.
    He was referring to the mandatory conditioning authorities 
used by the natural resources agencies in this committee's 
jurisdiction and others. The U.S. Fish and Wildlife Service, 
NOAA, the U.S. Forest Service, the Bureau of Land Management, 
and others have the ability to impose conditions on any utility 
which wants to license or re-license hydropower facilities. 
Depending on the facility, these mandatory costs can be 
significant for ratepayers. As this committee heard, some of 
these conditions have no cost benefit analysis, and there is 
little transparency in how the resource agencies devise them.
    In addition, some of these conditions actually conflict 
with each other, which is a recurring theme we have heard time 
and time again in this committee. The Federal agencies can 
literally give the thumbs-up or thumbs-down on some of these 
projects by proposing unrealistic or uneconomic conditions.
    In today's hearing, we will mostly hear from those who 
represent ratepayers who not only pay the regulations imposed 
on them by the agencies, but who pay for the agencies to 
regulate them. At some point later, as in past hearings on 
similar topics, our intent is to call the agencies before us to 
give their side of the story. Federal law was improved in 2005, 
but as we will hear today, further improvements are necessary.
    We have utilities before us who rely on hydropower and want 
to continue using this clean, renewable, and emissions-free 
resource at reasonable prices. The questions will be whether 
they can continue to do so in the current environment, and 
whether the hydropower resource can be a resource for the 
future or one that has passed its prime because Federal 
agencies helped suffocate it. We can help answer those 
questions today and have the power to steer this ship in a 
positive direction.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today's hearing will delve into the topic of America's largest 
source of renewable energy: hydropower.
    Harnessing the power of moving water has been around since Greek 
civilization. But, modern hydropower as we know it began in the 1880s 
with engineering innovations here in America. It helped transform our 
country by electrifying both urban and rural communities. Large-scale 
dams even helped us win World War II by powering the factories needed 
to build the armaments necessary to defeat our enemies.
    Even my home state of Louisiana benefits from hydropower, with 
rural communities continuing to receive hydropower generated regionally 
from Army Corps of Engineers dams and from other sources.
    There is vast potential for new hydropower facilities throughout 
Louisiana and the rest of the country. According to this Oak Ridge 
National Laboratory 2013 map depicted on the screen, up to an 
additional 12,100 megawatts of hydropower on existing non-powered dams 
alone could be added to our electricity mix. That's a 15 percent 
increase from our existing hydropower capacity. According to this map, 
much of that could come from the Mississippi watershed and east. That's 
not to say that all of these facilities could or should be built due to 
a number of factors, but we clearly have room to grow.
    Despite all of this potential, the former director of the Federal 
Energy Regulatory Commission's Energy Projects testified before this 
committee a few years ago that hydropower's growth is ``stagnant.'' He 
cited a non-partisan Energy Information Administration report that 
found that there was no net increase in hydropower capacity in the last 
decade. He compared this to the growth of natural gas facilities--even 
when gas prices were high--and noted that the market simply ignored 
hydropower. His extensive experience led him to conclude that ``the 
issue of dispersed decisionmaking, as represented by multiple agencies 
with mandatory conditioning authority . . . should be considered as a 
primary reason for the complete lack of progress'' in hydropower 
development.
    He was referring to the mandatory conditioning authorities used by 
the natural resources agencies in this committee's jurisdiction and 
others. The U.S. Fish and Wildlife Service, NOAA Fisheries, the U.S. 
Forest Service, the Bureau of Land Management and others have the 
ability to impose conditions on any utility which wants license or re-
license hydropower facilities. Depending on the facility, these 
mandatory costs can be significant for ratepayers. As this committee 
heard, some of these conditions have no cost-benefit analysis and there 
is little transparency in how the resource agencies devise them. In 
addition, some of these conditions actually conflict with each other, 
which is a recurring theme we've heard time and again in this 
subcommittee.
    The Federal agencies can literally give the thumbs-up or thumbs-
down on some of these projects by proposing unrealistic or uneconomic 
conditions. In today's hearing, we will mostly hear from those who 
represent ratepayers who not only pay the regulations imposed on them 
by the agencies but who pay for the agencies to regulate them. At some 
point later and as in past hearings, our intent is to call the agencies 
before us to give their side of the story.
    Federal law was improved in 2005, but as we will hear today, 
further improvements are necessary. We have utilities before us who 
rely on hydropower and want to continue using this clean, renewable and 
emissions-free resource at reasonable prices. The questions will be 
whether they can continue to do so in the current environment and 
whether the hydropower resource can be a resource for the future or one 
that has passed its prime because Federal agencies helped suffocate it. 
We can help answer those questions today and have the power to steer 
this ship in a positive direction.

                                 ______
                                 

    Dr. Fleming. Before I recognize the Ranking Member, I will 
have to apologize. I have to excuse myself and ask Dr. Gosar to 
sit in for me, as I am in a markup with another committee.
    So with that, I recognize the Ranking Member, Mr. Huffman.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. And thanks to our 
witnesses and everyone here for this important discussion. I 
think it is important because hydropower can be a source of 
inexpensive, relatively clean energy. I have long been a 
supporter of responsible hydropower development, as long as it 
is consistent with our landmark environmental protections, and 
the protection of tribal and recreational opportunities.
    In the last Congress, because I care about making the 
regulatory process work better, I supported both the Small 
Conduit Hydropower Act and the Hydropower Regulatory Efficiency 
Act. These were bills that exempted some hydropower projects 
from licensing requirements, and they authorized non-Federal 
hydropower development at Bureau of Reclamation projects. I was 
glad to do this, because these bills promote private hydropower 
development, while also preserving public rivers that belong to 
all Americans. Both of these bills did not disrupt long-
standing Federal protection of public land and tribal 
resources, and that is important because striking that balance 
has always been essential to making hydropower work, I believe.
    When hydropower is improperly sited or operated, it can 
have major impacts, and we need to bear that in mind. It can 
cause serious harm to fish and wildlife, water quality, 
recreational opportunities, and tribal lands. I am looking 
forward to hearing from all of our witnesses, but I am 
especially glad that we have on the panel Ms. Mary Pavel from 
the Skokomish Indian Tribe, who will talk to us about some of 
the harm that can be caused when we do not strike the right 
balance in licensing hydro projects.
    Mary's tribe in Washington State was gravely impacted by a 
hydropower project that dried up part of the Skokomish River, 
completely destroyed the tribe's salmon fishery, flooded nearly 
one-third of the reservation, and irreparably destroyed the 
tribe's principal means of livelihood. Sadly, Mr. Chairman, 
this is just one of many examples of a poorly permitted hydro 
project and how it can cause serious damage to stakeholders.
    In the early 20th century, the Federal Government allowed 
hundreds of permits to build dams on the public's rivers. The 
licensing process frequently did not take into account--
seriously, at least--any of the effects of these facilities on 
fisheries, recreation, or tribal and public lands. Although the 
ingenuity and industriousness of our forebears was laudable, is 
laudable, today, thanks to science and real-world experience, 
we simply know that we can do better.
    And recognizing the damage caused by such a lax permitting 
process in the past, in recent decades Congress has redoubled 
efforts to strike that balance. In 1986, Congress passed a law 
called the Electric Consumer Protection Act, that required FERC 
to give equal consideration to recreation, fisheries, energy 
conservation, and energy generation when issuing hydropower 
licenses.
    The legislation limited FERC's ability to simply reject 
expert advice from natural resource agencies and tribes 
concerning fish, wildlife, and tribal needs. And this was a 
consensus bipartisan bill supported by folks in both parties, 
signed into law by that extremist environmentalist, Ronald 
Reagan.
    Congress next amended the hydropower licensing process in 
2005 when it passed the Energy Policy Act. That legislation--
again, bipartisan, signed by President Bush--included 
provisions that made the permitting process for hydropower 
licenses much easier, gave the hydro industry some additional 
procedural options in complying with environmental protections, 
but it did not compromise the fundamental integrity of the 
balancing system that the Federal Government has tried to 
maintain.
    Now, unfortunately, I am concerned that some of the 
provisions in H.R. 8, the recently passed House Energy bill, 
would undermine the ability of states and Federal natural 
resource agencies to place reasonable conditions on hydropower 
licenses in order to strike that balance, and in order to 
protect tribal and public lands, safeguard water quality, and 
fishery resources. The legislation would also jeopardize 
industries that rely on healthy rivers, including the 
commercial and recreational fishing industry and the outdoor 
recreation industry.
    I certainly recognize that some hydropower licenses are 
currently facing permitting challenges. Many of these projects 
predated many of the environmental laws that they are now being 
asked to comply with for the first time, in what is famously a 
very long and expensive re-licensing process. I am very 
interested in working with all the stakeholders in finding ways 
to make that more efficient, to reduce the burden, but also, as 
we do that, to maintain that important balance. I will look 
forward to the testimony and the discussion we have today. 
Thank you.
    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you, Mr. Chairman, and thanks to our witnesses and everyone 
here for this important discussion.
    I think it is important because hydropower can be a source of 
inexpensive, relatively clean energy. I have long been a supporter of 
responsible hydropower development as long as it's consistent with our 
landmark environmental protections and the protection of tribal and 
recreational opportunities. In the last Congress--because I care about 
making the regulatory process work better--I supported both the Small 
Conduit Hydropower Act and the Hydropower Regulatory Efficiency Act. 
These are bills that exempted some hydropower projects from licensing 
requirements and they authorized non-Federal hydropower development at 
Bureau of Reclamation projects.
    I was glad to do this because these bills promote private 
hydropower development while also preserving public rivers that belong 
to all Americans. Both of these bills did not disrupt long-standing 
Federal protection of public land and tribal resources and that's 
important because striking that balance has always been essential to 
making hydropower work, I believe. When hydropower is improperly sited 
or operated, it can have major impacts and we need to bear that in 
mind. It can cause serious harm to fish and wildlife, water quality, 
recreational opportunities and tribal lands.
    I'm looking forward to hearing from all of our witnesses but I'm 
especially glad that we have on the panel Ms. Mary Pavel from the 
Skokomish Indian Tribe who will talk to us about some of the harm that 
can be caused when we don't strike the right balance in licensing hydro 
projects. Mary's tribe in Washington State was gravely impacted by a 
hydropower project that dried up part of the Skokomish River, 
completely destroyed the tribe's salmon fishery, flooded nearly one-
third of the reservation, and irreparably destroyed the tribe's 
principal means of livelihood. And sadly, Mr. Chairman, this is just 
one of many examples of a poorly permitted hydro project and how it can 
cause serious damage to stakeholders. In the early 20th century, the 
Federal Government allowed hundreds of permits to build dams on the 
public's rivers. The licensing process frequently did not take into 
account, seriously at least, any of the effects of these facilities on 
fisheries, recreation, or tribal and public lands. And although the 
ingenuity and industriousness of our forebears was laudable, is 
laudable, today, thanks to science and real world experience, we simply 
know that we can do better.
    Now recognizing the damage caused by such a lax permitting process, 
in the past, in recent decades Congress redoubled its efforts to strike 
that balance. In 1986, Congress passed a law called the Electric 
Consumer Protection Act that required FERC to give equal consideration 
to recreation, fisheries, energy conservation, and energy generation 
when issuing hydropower licenses. The legislation limited FERC's 
ability to simply reject expert advice of natural resource agencies and 
tribes concerning fish, wildlife, and tribal needs. And this was a 
consensus, bipartisan bill supported by folks on both parties signed 
into law by that extremist environmentalist Ronald Reagan.
    Congress next amended the hydropower licensing process in 2005 when 
it passed the Energy Policy Act. And that legislation--again, 
bipartisan--signed by President Bush, included provisions that made the 
permitting process for hydropower licenses easier. It gave the hydro 
industry some additional procedural options in complying with 
environmental protections, but it did not compromise the fundamental 
integrity of the balancing system that the Federal Government has tried 
to maintain.
    Now unfortunately, I'm concerned that some of the provisions in 
H.R. 8, the recently passed House Energy bill, would undermine the 
ability of states and Federal natural resource agencies to place 
reasonable conditions on hydropower licenses in order to strike that 
balance and in order to protect tribal and public lands, safeguard 
water quality, and fishery resources. Legislation would also jeopardize 
industries that rely on healthy rivers, including the commercial and 
recreational fishing industry and the outdoor recreation industry.
    Now, I certainly recognize that some hydropower licensees are 
currently facing permitting challenges. Many of these projects are 
predated. Many of the environmental laws that they're being asked to 
comply with for the first time, in what is famously a very long and 
expensive relicensing process. I'm very interested in working with all 
the stakeholders in finding ways to make that more efficient, to reduce 
the burden, but also as we do that to maintain that important balance 
and I look forward to the testimony that we have today.

    Thank you.

                                 ______
                                 

    Dr. Gosar [presiding]. I thank the gentleman.
    I now recognize myself as both the Acting Chair and Vice 
Chair, for my opening statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Hydropower may not be the most exciting or new 
energy out there, maybe because it was old news for so long. 
Hydropower is a hidden resource. Its blades are often covered 
by concrete. They do not spin on mountaintops and they do not 
look like giant mirrors. But they have a proven track record of 
keeping the lights on and they actually enable other renewable 
technologies by acting as their backup battery. Hydropower has 
been good for the western United States, which wouldn't be what 
it is today without it.
    The Bureau of Reclamation's Colorado River flagship dams, 
the Glen Canyon and Hoover, provide clean power for millions, 
including Arizonans. Customer funding helped keep these 
facilities up to date, and they will continue into the future.
    But, hydropower deserves a renaissance. There is a vast 
potential to produce more hydropower through existing powered 
and non-powered dams, there are opportunities to build new 
dams, and to encourage investment in pumped storage, tidal and 
conduit hydropower projects, just to name a few. New turbine 
designs and technologies improve hydropower efficiency and 
protect more fish every year.
    This should be a target-rich environment. Entrepreneurs and 
utilities want Hydropower 2.0 in the 21st century. But will 
Federal agencies let them have it? So far, at least to me, the 
answer is no, or a close maybe. The Federal Government is way 
behind the curve.
    The Bureau of Reclamation is one such example. In 2013, two 
bipartisan laws encouraging hydropower construction through 
regulatory simplification on thousands of miles of Federal and 
non-Federal canals and pipes were supposed to unleash 
development. It is succeeding on non-Federal canals, but there 
is little to show on Bureau of Reclamation conduits, other than 
new Federal rules.
    The Forest Service and the Bureau of Land Management 
collectively have non-Federal hydropower projects that generate 
almost 23,000 megawatts on their lands. That is the installed 
generating capacity of 11 Hoover Dams. Yet, they both come into 
constant conflict with utilities, and even another Federal 
partner, as was the case with the C.C. Cragin pipeline in 
northern Arizona. The Forest Service is in the midst of 
resurrecting its Groundwater Directive through planning 
documents that would only make it harder to build and re-
license projects.
    [Slide]
    Dr. Gosar. The Chairman rightly pointed to this map 
earlier. A lot of development could occur on Federal land. In 
fact, as the next chart says, almost 900 megawatts--this is one 
of those eye-challenging charts.
    [Laughter.]
    Dr. Gosar. It is constantly an eye test in this committee.
    Nine hundred megawatts could be generated at non-powered 
dams that are on lands managed by the Who's Who of Agencies, 
well known by this committee. That is a large coal plant--not 
that there is anything wrong with coal, especially Navajo and 
Hopi coal.
    Given what we have heard in years past, and some of the 
issues presented today, the chances of new, wide-scale 
development on those lands is about as good as getting a foot 
of snow in Phoenix in August, or anytime for that matter.
    At some point, we will hear from the Federal agencies, and 
they will crow about the inter-agency memoranda they have 
signed in an effort to boost hydropower. Yet so far, those 
efforts have proven relatively hollow.
    Let's not forget about modernizing our existing facilities. 
Over 24 percent of existing non-Federal facilities are up for 
re-licensing over the next 5 years.
    [Slide]
    Dr. Gosar. This map shows the facilities that are on the 
bubble for re-licensing before 2023. This is staggering, when 
you think about it, given the issues facing many of these 
utilities and ratepayers.
    We can do better. The Federal Government needs to adapt to 
the times and catch up with the proactive attitude of those who 
have done and want to do something. An improved, transparent 
re-licensing process that yields timely results can be a win-
win for ratepayers and the environment.
    I want to thank the witnesses who have traveled here today 
from across the country to help improve this process in a 
productive and positive way. You are leaders in the hydropower 
world, and we stand ready to work with you.
    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of the Hon. Paul Gosar, a Representative in Congress 
                       from the State of Arizona
    Thank you for holding this hearing.

    Hydropower may not be the most exciting or new energy out there; 
maybe because it was old news for so long. Hydropower is a hidden 
resource--its blades are often covered by concrete; they don't spin on 
mountaintops and they don't look like giant mirrors, but they have a 
proven track record of keeping the lights on and actually enable other 
renewable technologies by acting as their backup battery.
    Hydropower has been good for the western United States, which 
wouldn't be what it is today without it. The Bureau of Reclamation's 
Colorado River flagship dams--Glen Canyon and Hoover--provide clean 
power for millions--including Arizonans. Customer funding helps keep 
these facilities up to date and they will continue into the future.
    But, hydropower deserves a renaissance. There is vast potential to 
produce more hydropower through existing powered and non-powered dams 
and opportunities to build new dams and encourage investment in pumped 
storage, tidal and conduit hydropower projects to name a few. New 
turbine designs and technologies improve hydropower efficiency protect 
more fish every year.
    This should be a target rich environment. Entrepreneurs and 
utilities want hydropower 2.0 in the 21st century but will Federal 
agencies let them have it? So far, at least to me, the answer is no or 
maybe. The Federal Government is way behind the curve.
    The Bureau of Reclamation is one such example. In 2013, two 
bipartisan laws encouraging hydropower construction through regulatory 
simplification on thousands of miles of Federal and non-Federal canals 
and pipes were supposed to unleash development. It's succeeding on non-
Federal canals but there's little to show on Bureau of Reclamation 
conduits other than new Federal rules.
    The Forest Service and the Bureau of Land Management collectively 
have non-Federal hydropower projects that generate almost 23,000 
megawatts on their lands--that's the installed generating capacity of 
11 Hoover Dams Yet, they both come in constant conflict with utilities 
and even another Federal partner, as was the case with the CC Cragin 
pipeline in northern Arizona. The Forest Service is in the midst of 
resurrecting its Groundwater Directive through planning documents that 
would only make it harder to build and re-license projects.
    The Chairman rightly pointed to this map on the screen earlier. A 
lot of development could occur on Federal land. In fact as the next 
chart on the screen says, almost 900 megawatts could be generated at 
non-powered dams that are on lands managed by the Who's Who of the 
agencies well known by this committee. That's a large coal plant--not 
that there's anything wrong with coal, especially Navajo and Hopi coal.
    Given what we've heard in years past and some of the issues 
presented today, the chances of new wide-scale development on those 
lands is about as good as getting a foot of snow in Phoenix in August, 
or anytime for that matter. At some point, we will hear from the 
Federal agencies and they will crow about the inter-agency memoranda 
they have signed in an effort to boost hydropower. Yet, so far those 
efforts have proven relatively hollow.
    Let's not forget about modernizing our existing facilities. Over 24 
percent of existing non-Federal facilities are up for re-licensing over 
the next 5 years. This map shows the facilities that are on the bubble 
for re-licensing before 2023. This is staggering when you think about 
it given the issues facing many of these utilities and ratepayers.
    We can do better. The Federal Government needs to adapt to the 
times and catch up with the proactive attitude of those who have done 
and want to do something. An improved, transparent re-licensing process 
that yields timely results can be a win-win for ratepayers and the 
environment.
    I want to thank the witnesses who have traveled here today from 
across the country to help improve this process in a productive and 
positive way. You are leaders in the hydropower world and we stand 
ready to work with you.

                                 ______
                                 

    Dr. Gosar. We will now hear from our panel of witnesses. 
Each witness' written testimony will appear in full in the 
hearing record. So, I ask that the witnesses keep their oral 
statements to 5 minutes, as outlined in our invitation letter 
to you, and under Committee Rule 4(a).
    I also want to explain our timing lights, and how they 
work. When you begin to speak, our clerk will start the timer. 
You will see this right here go to a green light. After 4 
minutes, a yellow light will appear. At that time, you should 
begin to try to conclude your statement. At 5 minutes, the 
light will turn red. I ask you to complete your sentence, but 
we may ask you to stop thereafter.
    Now, here are today's witnesses. First, Ms. Debbie Powell, 
Senior Director of Power Generation Operations for the Pacific 
Gas and Electric Company, which is based out of San Francisco, 
California, and covers much of California; Mr. Steve Boyd, 
Director of Water Resources and Regulatory Affairs for Turlock 
Irrigation District, based in Turlock, California. Two 
Californians, wow, that is good.
    Mr. Huffman. It is looking up around here.
    Dr. Gosar. Yes.
    [Laughter.]
    Dr. Gosar. Ms. Mary Pavel, Attorney for Sonosky, Chambers, 
Sachse, Endreson & Perry LLP, based in Washington, DC; and Ms. 
Jessica Matlock, Director of Government Relations for the 
Snohomish County Public Utility--did I say it right?
    Ms. Matlock. Yes.
    Dr. Gosar. OK. District Number 1 in Everett, Washington.
    Hey, where are the Arizona witnesses?
    [Laughter.]
    Dr. Gosar. I now recognize Ms. Powell for her testimony.
    You have 5 minutes.

STATEMENT OF DEBBIE POWELL, SENIOR DIRECTOR OF POWER GENERATION 
 OPERATIONS, PACIFIC GAS AND ELECTRIC COMPANY, SAN FRANCISCO, 
                           CALIFORNIA

    Ms. Powell. Good afternoon and thank you. I am Debbie 
Powell, Senior Director of Power Generation Operations at 
Pacific Gas and Electric Company. PG&E is one of the Nation's 
largest utilities. We are also the owner and operator of 
America's largest investor-owned hydroelectric system, with 26 
FERC licenses. This means we are regularly in the process of 
re-licensing multiple FERC projects.
    Our system generates nearly 3,900 megawatts of clean power 
for millions of Americans and Californians. Hydropower is safe, 
clean, reliable, and affordable. It is a greenhouse gas 
resource of energy that provides important benefits to the 
overall power system, particularly systems with significant 
amounts of intermittent renewable generation.
    PG&E is encouraged that Federal legislation is advancing in 
both Houses of Congress to promote hydropower development, 
including modest improvements to the licensing processes. We 
remain hopeful that the House and Senate bills can eventually 
be reconciled between leaders of both chambers, and presented 
to the President for his signature in 2016. Congress now has an 
important opportunity to build on that progress by further 
improving the hydropower licensing and re-licensing processes. 
Common sense and basic reforms can make these processes more 
efficient, while keeping in place the environmental 
protections, stakeholder engagement, community improvements, 
and facility upgrades we all agree are necessary and critical.
    PG&E places a priority on using collaborative processes to 
navigate a hydroelectric facility through re-licensing. But as 
it stands today, the prescribed processes are overly complex, 
unnecessarily prolonged, insufficiently coordinated, and 
needlessly expensive. To put this in perspective, PG&E's recent 
experience is that it takes more than 7 years and often more 
than 10 years to renew a FERC license for an existing fully 
operational project.
    The cost just to complete the re-licensing process for the 
continued operation of a facility has ranged from tens of 
millions to over $50 million. And implementing the requirements 
of the new license often ranges from several million to over 
$100 million. All of these costs are ultimately shouldered by 
the energy consumer.
    The re-licensing process involves numerous Federal and 
state agencies and other stakeholders with interests that may 
not always align. Therefore, we believe the process should be 
improved to focus on the following: assure environmental 
protections and preserve hydropower; achieve the benefits of 
re-licensing sooner; reduce cost and improved predictability of 
outcomes; and enhance the collaborative process to be results- 
and solutions-oriented.
    Furthermore, we recommend a number of specific improvements 
to address these licensing matters, including improved 
coordination between Federal and state environmental reviews, 
to include imposing a controlled schedule for all parties 
involved; better definition of the extent of authorities of the 
Federal agencies; improved Federal and state agency 
coordination and transparency; and establish a process for a 
single challenge opportunity before FERC to resolve issues.
    For example, in California we are working to help make our 
state environmental review follow a parallel path with the 
Federal reviews, including relying on the same data and 
studies. To date, this process has generally been sequential 
and separate, at times resulting in conflicting licensing 
conditions. And such conditions sometimes have extended to 
private lands, where there is no clear nexus to the project.
    Regarding land use, we clearly recognize the right of 
Federal agencies, as landlords, to place conditions on the 
lands they manage, if a license is using them for hydropower. 
However, we do not believe these agencies should have 
unilateral authority to condition private land associated with 
the project. Moreover, Congress should remain in the position 
to define the extent of that authority, not the courts or 
endless litigation.
    We also understand that agencies have different missions 
and perspectives on what license conditions are appropriate, 
but there can and should be better coordination to avoid 
duplication of effort and confusing or conflicting requirements 
being issued by multiple agencies. These are all common-sense 
improvements.
    We know that Congress has an important opportunity to 
modernize the hydropower licensing processes. PG&E looks 
forward to working with you to advance these long-overdue 
measures in 2016 and beyond. Thank you.
    [The prepared statement of Ms. Powell follows:]
Prepared Statement of Debbie Powell, Senior Director, Power Generation 
              Operations, Pacific Gas and Electric Company
    Good afternoon Chairman Fleming, Ranking Member Huffman, and 
members of the Water, Power and Oceans Subcommittee. My name is Debbie 
Powell, and I serve as Senior Director of Power Generation Operations 
at Pacific Gas and Electric Company (PG&E).
    I am pleased to appear before the subcommittee on the issue of 
``Realizing the Potential of Hydropower as a Clean, Renewable and 
Domestic Energy Resource.'' PG&E appreciates the time and consideration 
the Natural Resources Committee and Congress are giving to the need to 
invest in and modernize our Nation's energy infrastructure to make it 
more reliable, more resilient and better able to support the 21st 
century economy. Hydropower licensing reform is a critical component of 
this effort, given the important role that water plays in energy 
production and consumption, combating climate change, renewable energy 
integration, habitat restoration, and recreation, to name just a few.
    PG&E is one of the largest combined natural gas and electric 
utilities in the United States. Based in San Francisco, with more than 
23,000 employees, the company delivers some of the Nation's cleanest 
energy to nearly 16 million people--or 1 in 20 Americans--throughout a 
70,000-square-mile service area in Northern and Central California.
    PG&E also owns and operates one of the Nation's largest investor-
owned hydroelectric systems, which is built along 16 river basins and 
stretches more than 500 miles. PG&E's 67 powerhouses, including a 
pumped storage facility, have a total generating capacity of 3,888 
megawatts (MW)--enough to meet the needs of nearly 4 million homes with 
carbon-free energy. The system relies on approximately 100 reservoirs 
located primarily in the higher elevations of California's Sierra 
Nevada and Southern Cascade mountain ranges.

    PG&E's hydroelectric system consists of 26 federally licensed 
projects. Since 2000, PG&E has completed 10 hydropower re-licensing 
proceedings representing 1,140 MW. PG&E has seven ``active'' hydropower 
re-licensing proceedings, which represent an additional 1,131 MW.

    PG&E actively manages its hydroelectric system to ensure the safety 
of the public and our workforce; protect wildlife habitat and sensitive 
species; and maintain access to popular recreation areas, including 
campgrounds, picnic areas, boat launches, walking and hiking trails, 
fishing, and whitewater flows. We know firsthand, the infrastructure 
needs, responsibilities and challenges related to maintaining, 
operating and re-licensing this clean, reliable and valuable resource.

    As required by Federal and state regulatory agencies, PG&E 
evaluates and mitigates the projects' impacts on natural resources and 
the environment. We have made it a priority to work collaboratively 
with stakeholders, including Federal and state agencies, local 
community members, environmental organizations, fishing interests and 
other recreationalists, and agricultural landholders, among others, 
during the re-licensing process. Together, we work to assess the 
impacts of these projects, identify the issues of importance, develop 
plans to protect fish and wildlife habitat, enhance recreational uses, 
and improve water quality and flow management. We believe this 
collaborative approach best serves the public interest, as we recognize 
that many entities and individuals rely on the various watersheds, 
which include our facilities.

    As it stands today, however, the prescribed licensing processes in 
place are overly complex, unnecessarily protracted, insufficiently 
coordinated, and needlessly expensive. In the simplest terms, we 
strongly support greater efficiency and transparency in the re-
licensing process, and the expeditious conclusion of the re-licensing 
process so that the environmental protections and benefits negotiated 
during that process can be implemented faster and more efficiently.

    Hydropower is an invaluable, renewable resource that our country 
can and should do more to capitalize on to help us meet greenhouse gas 
goals necessary to avert the worst impacts of climate change. 
Hydroelectricity is a greenhouse gas-free source of energy that 
provides important benefits to the overall power system, particularly 
systems with significant amounts of intermittent renewable generation, 
such as wind and solar, as well as to energy consumers across the 
country. According to the National Hydropower Association, using 
hydropower avoids approximately 200 million metric tons of carbon 
pollution in the United States each year--the equivalent of 42 million 
cars. It is a flexible resource, a domestic resource and a carbon-free 
resource. And we believe it is a resource that we must continue to use 
now and in the future.

    We appreciate all the efforts made to date by Congress to advance 
hydroelectric generation, and we believe that today's hearing by the 
Natural Resources Committee is another very important step to continue 
this progress. Moreover, we applaud the 114th Congress for advancing 
comprehensive energy bills that have included provisions to modernize 
the hydropower licensing process. We remain hopeful the House and 
Senate bills can be reconciled between leaders of both chambers and 
presented to the President for his signature in 2016. PG&E fully 
supports this process and will remain an active voice in the sharing of 
our experiences related to realizing the full potential of 
hydroelectric power.
    While these steps on the Federal legislative front have been 
encouraging, the regulatory approval process still remains a 
significant challenge, and future action at the Federal level is 
necessary to ensure the continued operation of existing hydropower and 
support for growth of new hydropower. Improving the efficiency of the 
licensing and re-licensing processes is paramount. PG&E believes that 
it is critical for hydroelectric power generators to be able to move 
through the re-licensing process more efficiently and more affordably, 
so that we can implement environmental protections, community 
improvements and facility upgrades proposed during re-licensing much 
more quickly than we can today. Delays in the re-licensing process 
serve only to delay such needed improvements and add costs, which are 
ultimately borne by the energy consumer.
               hydropower: a domestic and clean resource
    At approximately 100 gigawatts of installed capacity, hydropower is 
America's largest renewable energy resource, producing half of the 
country's renewable power. In addition to providing tens of millions of 
American homes with clean and affordable power each year, hydropower 
also provides benefits to recreation, flood control, irrigation, 
navigation, and water supply, among others.
    In order to capitalize on hydropower's existing capacity and future 
potential, addressing key challenges within the existing hydropower 
licensing process is necessary. In PG&E's experience, the process to 
re-license existing hydroelectric projects requires extensive 
consultation with multiple state and Federal agencies that consistently 
takes at least 7 years, and frequently lasts more than 10 years. For 
example, the re-licensing of the Poe Project is now in year 18.
    Meanwhile, the cost to PG&E customers to obtain a license renewal 
has routinely exceeded $20 million per license, and some current 
proceedings will exceed $50 million. When, and if, a license is 
approved and received, implementing the conditions of the license also 
routinely costs tens-of-millions of additional dollars.
    To put this into greater perspective, the cost and duration of the 
process to re-license an existing hydroelectric project can be just as 
cumbersome and complex as seeking a license for a new, unbuilt 
hydroelectric project. In both cases, the cost and duration associated 
with licensing is typically far greater than any other established 
electric generation technology.
                 licensing improvements for hydropower
    PG&E appreciates and recognizes the right of and need for Federal 
agencies to place license conditions upon the lands they manage. 
Similarly, PG&E also appreciates and recognizes the right of Federal 
agencies to prescribe fishways to allow fish to pass licensed dams. 
Finally, PG&E recognizes and appreciates that different Federal 
agencies have different missions and may therefore have different 
perspectives on what license conditions are needed. At the same time, 
we also believe that better coordination of these perspectives is 
necessary.
    The common sense and fair recommendations we advocate to modernize 
the process will: (1) help improve the timeliness and reduce the cost 
of renewing a license; (2) ensure all involved agencies use the same 
underlying data, studies and schedule in exercising their authorities; 
(3) provide clarity with respect to the extent of agencies' 
authorities; and (4) provide a process for a single effective challenge 
opportunity before the Federal Energy Regulatory Commission (FERC) to 
resolve disputes regarding proposed license conditions.
    In addition, none of the above-mentioned recommendations would 
repeal or undercut the authority of any Federal or state resource 
agency or the Native American community to administer the Endangered 
Species Act, Clean Water Act, or other Federal environmental laws 
pertaining to hydropower. And since these measures will encourage an 
open and collaborative approach with stakeholders, we will achieve 
better outcomes by working together throughout the licensing and re-
licensing processes--and hopefully be in a position to effectuate 
necessary upgrades and improvements more quickly.
    To overcome the existing licensing inefficiencies, while maximizing 
hydropower's potential and promoting additional transparency, Congress 
should focus on addressing the following four areas:

    <bullet> Improving coordination between Federal and state 
            environmental reviews;

    <bullet> Better defining the extent of authorities by Federal 
            agencies;

    <bullet> Improving Federal agency coordination and transparency; 
            and

    <bullet> Improving Federal and state agency coordination and 
            transparency.

    To achieve these basic improvements, we are hopeful Congress will 
pass meaningful hydropower licensing process reforms based on the 
following six principles:

    <bullet> Establishing a defined process at FERC to resolve issues 
            arising from overlapping or conflicting authorities, or 
            overlapping and conflicting license conditions among 
            Federal agencies, as well as between Federal and state 
            agencies.

    <bullet> Addressing deficiencies in the licensing process that 
            prohibit a licensee from challenging final conditions or 
            prescriptions.

    <bullet> Requiring the use of the same studies and data for both 
            Federal and state environmental analyses, including 
            defining a disciplined schedule to which all agencies and 
            stakeholders must adhere to.

    <bullet> Clarifying that the conditioning authority of Federal land 
            management agencies should be only on Federal or private 
            lands within the project boundary or directly related to 
            the project.

    <bullet> Empowering FERC to be in a position not to adopt proposed 
            license conditions that do not have a clear nexus with the 
            project being licensed or any actual effect on the Federal 
            reservation that is being used.

    <bullet> Allowing FERC to establish a schedule with respect to all 
            Federal authorizations, while considering late filed 
            mandatory conditions and prescriptions as recommendations 
            under Federal Power Act Section 10(a).

    In addition to implementing these principles, we recommend the 
Natural Resources Committee--given its jurisdiction over the Federal 
resource agencies involved in the licensing of hydropower facilities--
continue its work to identify criteria that result in sensible 
mandatory conditions all agencies can embrace. While PG&E generally has 
had success in working with Federal and state resource agencies and 
others to develop collaborative solutions, the fact remains that some 
can be narrowly focused on a single resource or unwilling to consider 
all of the impacts of their mandatory conditions, including impacts on 
the economy, the environment and electric reliability. We believe that 
a bipartisan solution can be reached to address these matters.
    PG&E believes these common sense, much-needed improvements to the 
hydropower licensing process can be accomplished in a responsible and 
balanced manner that protects and preserves our fisheries and other 
natural resources, and provides for continued collaboration.
    At the same time, such enhancements would bring consistency, 
predictability and lower costs for projects that support the safe and 
reliable delivery of hydroelectric power--benefiting utility customers, 
the environment, American jobs, and energy infrastructure. For example, 
a license renewal typically results in enhanced habitat and species 
protections, more access to recreational areas and updated water 
resource measures. These are improvements that all stakeholders want, 
but unfortunately they often take too long to put in place because of 
the length of the re-licensing process. A more timely process will 
continue to provide for these benefits, while also ensuring that they 
are achieved sooner and at lower cost to energy consumers.
    We know that Congress has an important opportunity to modernize the 
hydropower licensing processes in 2016 and beyond. PG&E looks forward 
to continuing our efforts--and working with Congress to further advance 
these long over-due measures--as we strive to operate the safest, 
cleanest and most reliable hydroelectric system in the Nation.

    Thank you for the opportunity to testify.

                                 ______
                                 

Questions Submitted for the Record by Rep. Huffman to Ms. Debbie Powell 
                  of Pacific Gas and Electric Company

Ms. Powell did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

    Question 1. Hydropower is one of several renewable, non-fossil fuel 
energy sources, but the construction and maintenance of dams can bring 
with it several negative environmental impacts, not only to fish and 
wildlife but through greenhouse gas emissions as well. These impacts 
include:

    <bullet> The emission of methane from reservoir surfaces, turbines 
            and spillways,

    <bullet> Submerging and destroying large areas of carbon capturing 
            forests and grasslands,

    <bullet> Blocking the flow of critically needed sediment to feed 
            starved coastal wetlands and beaches at risk from sea level 
            rise,

    <bullet> Impeding wildlife migration routes essential for climate 
            adaptation, and

    <bullet> Exacerbating the negative climate impacts on water 
            quality, stream flows, and water loss due to reservoir 
            evaporation.

    How does the Pacific Gas and Electric Company address these broader 
issues related to species viability, methane emissions, sediment loads, 
and reservoir evaporation?

                                 ______
                                 

    Dr. Gosar. Perfectly timed. Thank you very much, Ms. 
Powell.
    I now recognize Mr. Denham to introduce his witness, Mr. 
Boyd.
    Mr. Denham. Thank you, Mr. Chairman. It is my honor to 
introduce a good friend, Steve Boyd, Director of Water 
Resources and Regulatory Affairs at Turlock Irrigation 
District, the cleanest energy available, the cleanest energy 
out there. This water energy is not relatively clean, not kind 
of clean, but the cleanest. I understand there is a political 
agenda behind this as well, on why we do not want to have more 
water storage, but I just want to commend you on having the 
cleanest energy available out there.
    I know that you are going through a lot of challenges with 
the permitting process. A number of government regulations, 
while some would say they are lax policy permitting, I know 
that it has taken you over 7 years, it will probably take you 
another 7 years to a decade longer to actually finish this 
permitting process that will go well beyond our local budgets. 
I mean we are already over $20 million; I am sure it will be 
much, much more than that on this long, lengthy process.
    Nevertheless, you are providing power to our community, 203 
megawatts through the Don Pedro Dam alone. It is something that 
is critical to our community, critical to the Valley, not only 
with the amount of electricity you are providing, but certainly 
with the amount of water storage and irrigation. Without this 
irrigation, the social injustice that continues to see our high 
unemployment level, to see large swaths of our community that 
are unemployed and in bread lines would continue to increase.
    So, we thank you for the work that you do. We thank you for 
the work that is upcoming. Greater water storage not only 
creates greater clean energy, but certainly creates the bounty 
of fresh fruits and vegetables that we provide the rest of the 
world and creates much-needed jobs in our community, as well.
    We welcome you to today's hearing, and we look forward to 
hearing more about the transparency, the accountability, and 
particularly some of the challenges that you are going through 
with Federal and state agencies.

   STATEMENT OF STEVE BOYD, DIRECTOR OF WATER RESOURCES AND 
   REGULATORY AFFAIRS, TURLOCK IRRIGATION DISTRICT, TURLOCK, 
                           CALIFORNIA

    Mr. Boyd. Thank you, Congressman Denham, for that very kind 
introduction. Vice Chair Gosar, Ranking Member Huffman, members 
of the subcommittee, my name is Steve Boyd with the Turlock 
Irrigation District. I am the Director of Water Resources and 
Regulatory Affairs.
    Following the introduction, I want to focus my comments on 
our recent experience with re-licensing the Don Pedro Project. 
First, a little background. For those of you not familiar with 
California, we are about 90 miles due east of San Francisco. 
The project is on the Tuolumne River, a tributary to the San 
Joaquin River. The headwaters begin in Yosemite National Park. 
They flow west across the Valley into the San Joaquin, and then 
north into the San Francisco Bay Delta.
    Turlock Irrigation District was founded in 1887. We are the 
oldest irrigation district in the state and one of four today 
that also provides retail electricity to our consumers. Shortly 
after TID was formed, the Modesto Irrigation District was 
formed to our north, across the Tuolumne River from us and 
immediately adjacent to it, and the districts immediately began 
developing water rights, some of the oldest in the state, on 
the Tuolumne River, with the notion of bringing irrigation to 
some of the richest farm lands in the world.
    In the 1900s, the two districts began diverting water from 
the Tuolumne River, but it was apparent, without a reliable and 
safe water supply, we could not complete even a single 
irrigation season. So we constructed in the 1920s the original 
Don Pedro Project, capable of holding 289,000 feet. And we also 
entered the retail electric business at that time.
    With a small reservoir, we were able to get through one 
irrigation season. But for those of you familiar with hydrology 
in California, with back to back dry years we were unable to 
weather sustained drought, much like we are seeing now. So in 
1971, the districts completed the new Don Pedro Project, a 570-
foot-tall dam capable of impounding about 2.3 million acre-feet 
of water, about 10 times the size of the original project, and 
generating 203 megawatts of power.
    The original license was issued in 1966, and it carried a 
50-year term. Interestingly, that license is set to expire this 
Saturday. In anticipation of the expiration of that license, 
the districts began in earnest the re-licensing process in 
2009. Using what FERC calls the Integrated Licensing Process, 
or ILP, we began a series of meetings with interested 
stakeholders.
    The ILP is intended to create clear time frames, a project 
schedule, and provide ample opportunity for agencies, NGOs, and 
interested parties to provide input on studies, data gaps, and 
to help inform the record for the FERC process.
    Since the 7 years that we began the process, our ratepayers 
have spent over $20 million on the EILP, most of those costs 
associated with over 30 complex studies that are intended to 
show Don Pedro's impacts on a variety of resources. Those 
resources include historic properties, Native American cultural 
sites, recreation, state and federally protected species, water 
temperature and quality, resident and anadromous fish 
populations, both in the reservoir and below.
    All of those studies were developed in consultation and 
collaboration with multiple state and Federal agencies, NGOs, 
and, in our case, a myriad of interested individuals. We have 
held more than a dozen public workshops since 2013 on those 
studies. And, frankly, most of the agencies have not attended 
many of those and been a part of the process. It is my firm 
belief that the study results create the road map for success 
and licensing conditions going forward.
    Don Pedro is multiple-benefit facility. Aside from the 20 
percent annual production of our overall load, it is our most 
economical source and carbon-free source of energy.
    Seeing my time, I am going to jump right to the conclusion. 
In closing, the district takes their role of environmental 
stewardship very seriously. We are held correctly to a high 
standard of accountability and transparency in this process, 
and we believe that agencies with Section 4(e) and Section 18 
mandatory conditioning should be held to that same level of 
accountability.
    We believe there is a win-win in this process, and that we 
do not need to do away with mandatory conditioning, but simply 
bring about engagement in the process from the beginning. Thank 
you.
    [The prepared statement of Mr. Boyd follows:]
   Prepared Statement of Steve Boyd, Director of Water Resources and 
            Regulatory Affairs, Turlock Irrigation District
                               highlights

  1.  Hydropower is of great value to our region. It serves multiple 
            benefits, including irrigation, balancing for interment 
            renewable resources, recreation, promoting electric 
            reliability, is a clean emissions-free resource and is an 
            economic stimulus to our farming community.

  2.  FERC's Integrated Licensing Process (ILP) is only beneficial if 
            participants are willing to faithfully engage.

  3.  Mandatory Conditioning Agencies must give equal consideration to 
            power and non-power benefits as directed by current law; 
            the river provides so much more than power to the region.

  4.  The process could be improved if there was more transparency and 
            timely engagement by the resource agencies in the effort to 
            find science-based solutions to meet the multi-purpose 
            nature of the resources and the dam.

  5.  Last, for those that want to do the right thing and are concerned 
            about the integrity of the river, delays in licensing 
            ultimately also lead to delays in environmental benefits.

                             the foundation
    Established in 1887, the Turlock Irrigation District (TID) was the 
first publicly owned irrigation district in the state of California and 
is one of only four irrigation districts in the state providing 
electric retail energy directly to homes, farms and businesses. 
Organized under the Wright Act, the District operates under the 
provisions of the California Water Code as a special district and is 
governed by a locally elected, five-member Board of Directors.
    Today, TID provides irrigation water to more than 5,800 growers in 
a 307 square-mile service area that incorporates 150,000 acres of 
Central Valley farmland. In addition, TID provides reliable electricity 
to a growing retail customer base that now exceeds 100,000 residential, 
farm, commercial, industrial and municipal accounts in an electric 
service area that encompasses 662 square-miles in portions of three 
counties.
    TID has been delivering irrigation water since 1900 when the 
District completed 250 miles of its gravity-fed water conveyance 
system. The Tuolumne River is the District's primary source of water, 
replenished annually by the spring snowmelt in the 1,884-square-mile 
Tuolumne River watershed originating at Mt. Lyell in Yosemite National 
Park. Water for irrigation and hydroelectric power production is stored 
at the Don Pedro Reservoir about 50 miles east of Turlock in the Sierra 
Nevada foothills near the historic gold rush era town of La Grange.
    TID partnered with the neighboring Modesto Irrigation District 
(MID) (``the Districts''), and built La Grange Dam in 1893 to divert 
water out of the river and into the Districts' respective canals. The 
Districts joined forces again in the 1920s to build the first Don Pedro 
Dam. With a small storage capacity of 289,000 acre-feet, the dam held 
only enough water to accommodate growers' irrigation needs for a single 
growing season. After numerous dry winters, the Districts, which 
included our community, made the decision to replace the original dam 
with a much larger one in order to store water necessary to bridge 
multiple years of drought. The New Don Pedro Project was completed in 
1971 and has storage capacity of 2,030,000 acre-feet (AF), seven times 
larger than the original.
    With the first dam came the opportunity to generate hydropower. The 
Districts' customers voted overwhelmingly in 1923 to keep the power for 
public use versus selling it to investor-owned utilities then operating 
in the area, thus becoming the first of the state's irrigation 
districts to also enter the retail power business.
                   benefits of the don pedro project
    The Don Pedro Project was locally funded and built, and it is 
operated by the Districts. It was constructed primarily to store and 
deliver irrigation water to some of the most productive farmland in the 
world. According to the Socioeconomic Study Report completed in April 
2014, the Don Pedro Project supports approximately $4.109 billion in 
output, $734.8 million in labor income and 18,900 jobs annually. 
Additionally, the value of the crops produced within the TID service 
area is approximately $359.3 million per year. These numbers reflect 
the positive direct and indirect economic effects on the entire 
regional economy within Stanislaus, Merced and Tuolumne counties.
    With affordable, reliable irrigation water supplies, the Project 
directly supports the vibrant agricultural sector that has evolved 
since the Districts' formation. And by extension, it indirectly 
supports the large agriculturally based economy that has developed 
around crop and dairy farm production, including input suppliers, dairy 
plants, food processing businesses, and many others. In addition to 
providing irrigation water to some 150,000 acres, the Don Pedro project 
also provides municipal and industrial water supply, flood control 
storage, recreation, power, and fish and wildlife conservation 
benefits.
    Securing a new FERC license is not only crucial to providing water 
for California's Central Valley, it would maintain a clean and 
sustainable energy supply that is a fundamental component of the 
Districts' long-term effort to meet California's aggressive greenhouse 
gas reduction goals and to fulfill other energy and environmental 
mandates.
    On average, Don Pedro provides 20 percent of TID's annual electric 
load, but during a wet year, this can be as high as 35 percent. 
Moreover, Don Pedro is our most economical energy source and, because 
of its operating flexibility, is a critical resource for meeting demand 
and stabilizing the regional grid. In addition to the hydropower 
generated by the Don Pedro Project, TID meets the needs of their 
electric power customers with a variety of generation, including wind, 
solar and natural gas.
    Operational flexibility is paramount as TID, and California's 
entire utility sector, moves toward the newly adopted 50-percent 
Renewable Energy Standard (RPS) and a massive influx of intermittent 
renewables on the regional grid. Because TID serves as its own 
balancing authority--one of seven in the state--its portfolio must 
include sufficient resources to meet its reliability and safety 
obligations. As a balancing authority, we not only help provide 
reliability to the Valley, we also help the Western region in its 
balancing and electric reliability needs.
    This benefit cannot be understated as we move to one of the most 
aggressive renewable standards in the country. Although large 
hydroelectric systems are not included within California's regulatory 
definition of eligible renewable energy to meet the 50 percent RPS, Don 
Pedro's generation emits no greenhouse gases, helping TID limit our 
carbon footprint overall. The Central Valley has some of the lowest 
levels of air-quality in the state. Hydroelectricity produced from the 
Don Pedro Project continues to ensure that TID is able to provide 
reliable electricity with no carbon emissions.
    The multiple benefits of the Don Pedro Project continue to help 
maintain economic stability for our customers. This is extremely 
important as the District represents some of California's most 
economically challenged areas. Approximately 53 percent of the 
residents within TID's service area live within a disadvantaged 
community, as defined by the California Environmental Protection 
Agency.
                        the re-licensing process
    TID and MID are co-owners and licensees of the Don Pedro Project on 
the Tuolumne River. The Project consists the 2,030,000 AF reservoir and 
a powerhouse capable of generating 203 megawatts. The Federal Energy 
Regulatory Commission (FERC) issued the Districts a license for the Don 
Pedro Project in 1966, and that license expires on April 30, 2016. 
Since 2009, the Districts have been working toward acquiring a new 
license within FERC's Integrated License Process (ILP). Following 
extensive consultation with resource agencies, tribes, and multiple 
conservation groups, as well as the FERC, the Districts filed a draft 
license application on November 26, 2013, and a final license 
application with FERC on April 28, 2014.
    To date, the Districts have spent 7 years and more than $20 million 
on the FERC re-licensing process for the Don Pedro Project. The 
Districts expect to spend several more years and millions more in the 
expectation of a new license that will allow MID and TID to continue to 
cost-effectively operate, in an environmentally sound manner, the very 
same hydropower facility that they have been operating for the last 45 
years. As public agencies, the costs associated with the re-licensing 
process and meeting any additional conditions imposed by a new license 
will be borne by the communities MID and TID serve.
    The Districts intentionally chose to enter into the FERC ILP 
desiring to work alongside the state and Federal agencies and other 
interested parties and stakeholders--at the beginning of the process--
working toward an equitable solution for the operations of the Don 
Pedro Project. The Districts had hoped that this process would produce 
a solution in a reasonable time frame, allowing the Districts to begin 
to implement fisheries improvements agreed to by all parties.
    The Districts followed the FERC ILP, which provided a clear 
schedule and timeline for the re-licensing process and created fair and 
ample time for the involvement and participation of Non-Governmental 
Organizations (NGOs), state and Federal agencies as well as interested 
parties to be involved providing input and creating a clear and 
complete record.
    As part of this process, the Districts have completed more than 33 
studies, costing a cost of $20 million to date, with some individual 
studies exceeding $1 million. These studies examine, among other items, 
the Don Pedro Project's potential effects on historic properties, 
Native American cultural sites, public recreation, federally protected 
species, state protected species, water quality, water temperature, 
instream flow, resident and anadromous fish populations both in the 
reservoir and downstream of the project, terrestrial species and 
regional socioeconomic resources.
    Each of these 33 studies was developed by the Districts in 
consultation with multiple Federal and state agencies, numerous 
interest groups during countless meetings and conference calls, which 
in combination generated thousands of pages of information and 
comments. In addition, the Districts have held more than a dozen public 
workshops on the studies and their findings since 2013. After each 
study was performed, a draft report was shared with all the 
participants in the re-licensing process to provide an additional 
opportunity for review and comment. The Districts then responded to 
every comment, modified the draft report and issued a final report.
    As the final studies are completed and submitted, the Districts 
will be filing an amended Final License Application with FERC based on 
the complete data set and record. In the meantime, the Districts have 
been meeting with NGOs, resource agencies and all interested parties in 
the hopes of reaching agreement on flow and non-flow measures that 
could be made to ensure the integrity of the river and secure a new 
license. These measures will bring about significant improvements to 
the fishery sooner, rather than later; but only if all parties are 
willing to negotiate rather than drag out the regulatory process.
                   improving the re-licensing process
    The great amount of care, time and money committed by the Districts 
and the scientists and engineers performing rigorous studies using 
accepted methods vetted by all the re-licensing participants would be 
most useful if study results are used by the participants to inform 
their opinions and the recommended terms and conditions that they want 
FERC to impose on the new license.
    However, in our case, these carefully executed studies have often 
been ignored or criticized as faulty when the results do not confirm 
participants' pre-conceived notions or beliefs about environmental 
impacts. Fortunately, objectivity has not been lost with FERC staff, 
which gives every indication of being impartial reviewers who use and 
reference all of the resulting studies, and who do not seem to have 
pre-conceived notions about project impacts.
    For example, the Districts 2012 predation study, a FERC-required 
study, evaluated the impact of predation by non-native fish on salmon 
in the lower Tuolumne River. The study determined that more than 90 
percent of the out-migrating salmon smolts were consumed by non-native 
bass species prior to reaching the San Joaquin River. Some re-licensing 
participants and resource agencies criticized the study and requested 
an additional predation study. The Districts collaborated with re-
licensing participants and agreed on the new Predation Study Plan, and 
FERC ordered a second predation study in 2014, which will cost well 
over $1 million to be conducted. The Districts requested a permit from 
California Department of Fish and Wildlife in October 2013, yet the 
permit for the FERC-ordered study was never issued by the agency, 
meaning the 2012 study will be the study of record.
    The Districts take their role of environmental stewardship 
seriously and are rightfully held to a high degree of accountability 
and transparency with all re-licensing participants. We believe that 
all re-licensing participants should be held to that same standard, 
especially agencies with mandatory conditioning authority under Section 
4(e) and Section 18 of the Federal Power Act. We believe the record and 
the results of Tuolumne River-specific data should be the basis for 
decisions related to future license conditions. If mandatory 
conditioning agencies make decisions related to license conditions, it 
is incumbent upon them to provide logical and substantial support for 
their rationale, and make said information available to all 
participants.

    That is not always the case. For example,

        On June 10, 2011 the National Marine Fishery Service (NMFS) 
        communicated in a letter to FERC:

        ``Given that fall-run Chinook salmon, CV steelhead, and Pacific 
        lamprey are present in the lower Tuolumne River, it is 
        reasonable that NMFS may exercise (through the Secretary of 
        Commerce) its section 18 fishway prescriptive authority . . 
        ..''

    NMFS's letter clearly signaled its intent to require fish passage 
at Don Pedro prior to the completion of any studies on the Tuolumne 
River below or upstream of Don Pedro Dam documenting the existence of 
any of the environmental conditions necessary to support the various 
life cycles of the species mentioned by FERC in its letter. 
Retrofitting a fish passage on to the 570 feet high Don Pedro would be 
very expensive to the Districts' ratepayers. Before mandating such an 
undertaking, NMFS should be required to justify its decision with proof 
that it will actually benefit the resources and the fish passage is the 
best available option, not merely the one NMFS likes the best.
                               in closing
    The Districts believe that the study results and record from the 
Don Pedro process indicate that there are a series of flow and non-flow 
mitigation measures that, if implemented, would dramatically increase 
the health and viability of the fishery on the Tuolumne River. Those 
measures could be negotiated and settled upon by all interested parties 
and then taken to FERC jointly as a set of future license conditions. 
Many of the agencies are not motivated to seek creative solutions that 
could bring about significant environmental improvements sooner rather 
than much later, but choose instead to wait and use their regulatory 
authority at the end of the process, delaying environmental 
improvements as well requiring conditions not supported by data.
    The Districts want to do the right thing for our community, and the 
environment, and we think it is fair to want those actions to be based 
on science and the multiple studies we have conducted based on a 
collaborative process by all stakeholder. However, what we have found 
is no desire or incentive for certain resource agencies to engage in a 
meaningful way, throughout the process, waiting until the end when they 
have more bargaining power. We believe, when it comes to mandatory 
conditioning authority, there are no checks in the systems and 
improvements are needed.
    In closing, Don Pedro is an emissions-free resource, providing 
resilience toward multiple global challenges such as climate change, 
drought, and water storage, flows for fish, irrigation, and other 
ancillary uses. TID encourages a more efficient and transparent 
process, recognizing both power and non-power benefits of Don Pedro. 
Significant hydropower licensing improvements would perhaps shield 
future license applicants from the same regulatory dilemma the 
Districts are currently facing.

    Thank you.

                                 ______
                                 

   Questions Submitted for the Record by Rep. Huffman to Steve Boyd, 
                      Turlock Irrigation District

Mr. Boyd did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

    Question 1. Hydropower is one of several renewable, non-fossil fuel 
energy sources, but the construction and maintenance of dams can bring 
with it several negative environmental impacts, not only to fish and 
wildlife but through greenhouse gas emissions as well. These impacts 
include:

    <bullet> The emission of methane from reservoir surfaces, turbines 
            and spillways,

    <bullet> Submerging and destroying large areas of carbon capturing 
            forests and grasslands,

    <bullet> Blocking the flow of critically needed sediment to feed 
            starved coastal wetlands and beaches at risk from sea level 
            rise,

    <bullet> Impeding wildlife migration routes essential for climate 
            adaptation, and

    <bullet> Exacerbating the negative climate impacts on water 
            quality, stream flows, and water loss due to reservoir 
            evaporation.

    How does the Turlock Irrigation District address these broader 
issues related to species viability, methane emissions, sediment loads, 
and reservoir evaporation?

                                 ______
                                 

    Dr. Gosar. Well, I thank you very much.
    That was wonderfully done. Everyone is staying under 5 
minutes. I now recognize Ms. Pavel.

 STATEMENT OF MARY PAVEL, ATTORNEY, SONOSKY, CHAMBERS, SACHSE, 
             ENDRESON & PERRY, LLP, WASHINGTON, DC

    Ms. Pavel. Good afternoon, Mr. Chairman and members of the 
committee. My name is Mary Pavel. I am an attorney for the 
Skokomish Indian Tribe and a member of the tribe.
    Since time immemorial, the Skokomish Indian Tribe has 
occupied and controlled lands adjacent to the Skokomish River. 
In 1855, the Skokomish Tribe entered into a treaty with the 
U.S. Government, which reserved a permanent homeland for the 
Skokomish along the Skokomish River. The location of the 
reservation was intended to facilitate easy access to the river 
and its tributaries that are vital to the tribe's fish-
dependent lifestyle and culture.
    The focus of my testimony today is Section 4(e) and the 
importance of this provision in protecting the resources that 
are vital to tribes.
    The Skokomish Tribe's experience with the Federal Power Act 
represents two extremes of implementation of 4(e): when the 
Trustee abdicates its responsibility under the Act and when the 
Trustee embraces its responsibility under the Act.
    The Cushman Project became fully operational in 1930. From 
its inception, the tribe resisted the project because of its 
impact on the reservation and treaty rights. However, the 
Federal Government did nothing to protect the tribe or its 
reservation. As constructed, Cushman includes two dams, two 
powerhouses, penstocks, a pipeline, and transmission lines. 
Most of the project's structure lies just northwest of the 
Skokomish Reservation, but the powerhouse and transmission 
lines are within the reservation, with some of the transmission 
lines being located on trust property.
    The two dams totally block fish passage up the North Fork 
of the Skokomish River. Further, the entire flow of the North 
Fork of the Skokomish River was diverted from its channel and 
sent by pipeline to an out-of-basin powerhouse on the Hood 
Canal. This resulted in the destruction of the once premier and 
valuable Skokomish North Fork fishery, including the 
extirpation of the Skokomish River sockeye; the flooding of 
almost 30 percent of the Skokomish Reservation, including the 
destruction of the drinking water, because the flooding 
destroyed the function of septic systems; and the destruction 
of treaty-protected cultural and wildlife resources.
    Given the failure of the United States to uphold its 
responsibility under the Federal Power Act, the tribe had to 
wait until re-licensing in 1974. There was a great deal of time 
between when Tacoma filed its license and when FERC issued its 
new license, but that was not the land management agency's 
fault. In fact, Tacoma benefited from that process. Ultimately, 
what Tacoma got was not a 50-year license, but an 86-year 
license, because the annual licenses contained no new 
conditions.
    The tribe used its time actively to push Interior to move 
forward with 4(e) conditions. The Interior did put forward 4(e) 
conditions, however FERC rejected Interior's conditions, 
asserting that Interior had missed FERC's 60-day deadline. 
Further, notwithstanding the well-documented adverse impact of 
the project on their reservation, FERC took the position that 
Interior only had the authority to impose conditions on the 
transmission lines on trust lands.
    Both the tribe and the city filed petitions to review the 
Cushman license. In this case it was the tribe who defended 
Interior's authority to impose 4(e) conditions, not the Federal 
agency itself. Again, the Trustee abdicated its trust 
responsibility.
    In this landmark case, the court held that FERC must 
include Interior's 4(e) conditions in any license it issued for 
the project. This legal victory for the tribe created an 
opportunity for the tribe, Tacoma, and the Federal and state 
agencies to reach a global settlement for the future operation 
of Cushman. The benefits of the settlement included increased 
carrying capacity of the Skokomish River; improved fish 
habitat; improved fish passage; restoration of salmon 
populations, including two hatcheries to reintroduce them into 
the North Fork; restoration of wildlife habitat; and 
restoration of lands and cultural sites to the tribe.
    There can be no doubt that this settlement only happened 
because Interior's authority to impose 4(e) conditions was 
upheld by the court.
    While hydropower may be carbon free and renewable, 
policymakers must consider that hydropower development can have 
devastating and, in some cases, irreversible impact on people 
and resources. The Skokomish Tribe bore the brunt of the cost 
of generating power at Cushman for 86 years. Today, unlike the 
1920s, the land management agencies better recognize the 
responsibility to balance the interest of energy development 
against the responsibility to protect the lands and resources 
that are a part of the public trust. The balance that is 
required by 4(e) is necessary for the United States to fulfill 
its solemn trust responsibility to tribes to protect our 
homeland and our resources.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Pavel follows:]
   Prepared Statement of Mary J. Pavel, Partner--Sonosky, Chambers, 
                     Sachse, Endreson & Perry, LLP
    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify today. My name is Mary Pavel. I am currently a 
partner in the law firm of Sonosky, Chambers, Sachse, Endreson & Perry, 
LLP. I previously served as the Chief Counsel and Staff Director for 
the Senate Committee on Indian Affairs. I am an attorney for the 
Skokomish Indian Tribe and a member of the tribe.
                      a. the skokomish reservation
    Since time immemorial, the people of the Skokomish Indian Tribe 
occupied and controlled lands adjacent to the Skokomish River and Hood 
Canal on the Olympic Peninsula of Washington State. In 1855, the 
Skokomish Indian Tribe entered into a treaty with the U.S. Government, 
which reserved a permanent homeland for the Skokomish people near their 
ancestral villages along the Skokomish River at the southernmost point 
of Hood Canal. See Treaty of Point No Point, January 26, 1855, 12 Stat. 
933, reprinted in II C. Kappler, Indian Affairs, Laws and Treaties at 
674-77; see also U.S. v. Washington, 384 F. Supp. 312 (W.D. Wash. 1974) 
(Boldt).
    The location of the Reservation was intended to facilitate easy 
access to the Skokomish River, its tributaries, and the tidelands and 
salt water of Hood Canal that sustained the Skokomish people for 
generations. Id. at 376-77. The Reservation's location near the 
Skokomish River and the waters of Hood Canal supported the fish 
dependent lifestyle and culture of the Tribe. In 1905, the U.S. Supreme 
Court correctly acknowledged that for Pacific Northwest Indian tribes, 
fishing and hunting resources ``were not much less necessary to the 
existence of the Indians than the atmosphere they breathed.'' United 
States v. Winans, 198 U.S. 371 (1905).
    The treaty with the United States also reserved to the Skokomish 
people ``the right of taking fish at usual and accustomed grounds and 
stations . . .'' as well as hunting rights ``on open and unclaimed 
land.'' Boldt, 384 F. Supp. at 376-77. The Skokomish people relied and 
continue to rely on natural resources of the Skokomish River for 
subsistence, economy, ceremonial, cultural, religious, and other 
purposes. Id. Many tribal members derive all or a part of their income 
from the fish and shellfish of the Skokomish River system.
                b. section 4(e) of the federal power act
    The focus of the Tribe's testimony today is the Section 4(e) of the 
Federal Power Act and the importance of this provision in protecting 
the resources that are vital to the Skokomish Tribe. In one scholarly 
article, it is said, ``the Federal Power was premised on the principle 
that electric power potential of the Nation's navigable waterways is a 
public resource, which should be harnessed in a manner consistent with 
the public interest.'' Kirsch, Peter J. and Sietz, J. Barton, ``The 
Role of the Federal Energy Regulatory Commission in Protecting Non-
Consumptive Water Uses'' (1990) presented at Moving the West's Water to 
New Uses: Winners and Losers (Summer Conference, June 6-8)) at http://
scholar.law.colorado.edu/moving-wests-water-to-new-uses/13/. Section 
4(e) of the Federal Power Act is the tool that ensures that when this 
development happens it is consistent with the purposes of other Federal 
lands and most importantly, for the purposes of this testimony, Federal 
Indian reservations. See Sommerville, Thane D., ``Tribes and Dams: 
Using Section 4(e) of the Federal Power Act to Protect Indian Tribes 
and Restore Reservation Resources,'' Bellwether, Seattle University 
School of Law (Spring 2009).
    Section 4(e) of the Federal Power Act, even as originally enacted 
in 1920, authorized the Secretary of the Interior to impose conditions 
to protect Federal reservations, including Indian Reservations, where 
projects licensed by the Federal Power Commission were located. See 16 
U.S.C. Sec. 797(e). This provision continues in force and effect today. 
More specifically, the Federal Power Act authorized the licensing of 
hydroelectric power projects within reservations, but only upon an 
affirmative determination by the Federal Power Commission (now the 
Federal Energy Regulatory Commission ``FERC'') that the license ``will 
not interfere or be inconsistent with the purpose for which such 
reservation was created or acquired.'' 16 U.S.C. Sec. 797(e). In 
addition, Section 4(e) requires that any license issued within a 
Reservation shall be subject to and contain such conditions as the 
Secretary of the Interior shall deem necessary for the adequate 
protection and utilization of such reservations. Id.
    The Skokomish Tribe's experience with the Federal Power Act 
represents the two extremes of implementation of this important 
provision: when the trustee completely abdicates its responsibility 
under the Act and when the trustee ultimately embraces its 
responsibility under the Act. The Skokomish Tribe's experience with the 
Federal Power Act further demonstrates the critical importance that 
Section 4(e) plays in balancing the use of the Nation's waters for the 
development of hydropower with terms and conditions essential to 
ensuring that hydropower is not developed at the expense of other 
vitally important resources.
       c. initial licensing of the cushman hydroelectric project
    Since the early 1900s, the city of Tacoma and others recognized the 
hydropower possibilities for the Skokomish River. The Skokomish Tribe 
equally recognized the potential devastation that hydropower 
development would cause the Skokomish Tribe, its people and its 
resources. These concerns are well documented in correspondence between 
the Tribe and officials of the highest levels within the Federal 
Government, including officials within the Department of Justice and 
the Department of the Interior. These concerns were also expressed to 
the city of Tacoma.
    On November 21, 1923, the city of Tacoma requested a ``minor 
license'' from the United States, through the Federal Power Commission 
(now FERC) for the operation of the Cushman Hydroelectric Project. 
Skokomish Indian Tribe v. United States, 332 F.3d 551, 554 (9th Cir. 
2003). Notwithstanding the repeatedly expressed Tribal concerns 
regarding the impact that hydropower development would have on its 
treaty protected fishery and its Reservation, Tacoma submitted its 
license application without any measures for fish passage or any other 
mitigation to protect the Tribe and its Reservation. See City of 
Tacoma's Application to Federal Power Commission for a License to Flood 
Certain Lands of the United States (November 21, 1923).\1\ Moreover, 
Tacoma's 1923 application did not inform the Federal Power Commission 
that the main power plant and a portion of the project transmission 
line would be on the Skokomish Reservation, or that Tacoma intended to 
divert and dry up the entirety of the North Fork Skokomish River 
upstream of the Reservation. Id. Nor did the Federal Power Commission 
conduct any investigation to determine potential impacts to the 
Skokomish Tribe or the Skokomish Reservation. In 1924, the United 
States, through the Federal Power Commission, granted the city of 
Tacoma authorization to flood 8.8 acres of Federal land through a so-
called ``minor part'' license. See License for A Minor Part of a 
Complete Project, Project. 460, Washington City of Tacoma, O.C. 
Merrill, Executive Secretary Federal Power Commission (June 3, 1924). 
The license did not authorize the construction, operation, or 
maintenance of any dams, reservoirs, powerhouses, transmission lines or 
appurtenances. Id. The ``minor part'' license only authorized activity 
on less than two-tenths of one percent of the area actually occupied by 
the present-day Cushman Project. Skokomish v. United States, 332 F.3d 
at 565 (Tashima, J., dissenting).
---------------------------------------------------------------------------
    \1\ Copies of the records of this history are part of the record of 
proceedings in Skokomish Indian Tribe v. United States, No. C99-5606 
(E.D. Wash.), and are also maintained in the Tribe's files.
---------------------------------------------------------------------------
    In 1924, the city of Tacoma began construction of the Cushman 
Hydroelectric facility on the North Fork of the Skokomish River under 
the 50-year ``minor part'' license issued by the Federal Power 
Commission. The Cushman Project became fully operational in 1930. From 
its inception, the Project was vigorously resisted by the Skokomish 
Tribe because of its impacts on Reservation lands and treaty fishing 
rights. The record in the Tribe's case against the city of Tacoma and 
the United States documents the Tribe's repeated requests to the 
Interior Department to take action to protect the Skokomish Tribe and 
its Reservation, and its multiple requests to the Interior and Justice 
Departments for assistance and litigation in both state and Federal 
courts. See record of proceedings in Skokomish Indian Tribe v. United 
States, No. C99-5606 (E.D. Wash.). However, the Interior Department did 
nothing to protect the Tribe or its Reservation, despite Interior's 
authority (exclusive of the Tribe) under the Federal Power Act to 
protect the Tribe's Reservation and despite the United States' 
obligations under the Treaty with the Tribe to protect the rights 
guaranteed it under that Treaty. See Federal Power Comm'n v. Tuscarora 
Indian Nation, 362 U.S. 99 (1959); White Mountain Apache Tribe v. 
United States, 537 U.S. 465 (2003).
    The Cushman Project includes two dams, two powerhouses, penstocks, 
a pipeline, transmission lines and other structures. City of Tacoma v. 
FERC, 460 F.3d 53, 59 (D.C. Cir. 2006). Most of the Project's 
structures lie just northwesterly and in close proximity to the 
Skokomish Indian Reservation. See Map attached as Exhibit A. One 
powerhouse and the project transmission lines are within the 
Reservation, with the transmission lines being located on trust 
property. The two dams totally block fish passage up the North Fork of 
the Skokomish River. Further, the entire flow of the North Fork of the 
Skokomish River was diverted from its channel and sent by pipeline to 
an out of basin powerhouse on Hood Canal (a bay of the Puget Sound). 
City of Tacoma, 460 F.3d at 59.

                               EXHIBIT A
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .epsNotwithstanding issuance of the license, the Tribe continued to 
pursue avenues for readdress and protection of its treaty rights. 
Frustrated by the failure of the United States to protect it, the Tribe 
attempted to seek legal recourse against the development and associated 
impacts of the Cushman Project on its own. The Tribe was prevented from 
doing so by the United States. In a petition submitted to the Secretary 
by letter dated August 17, 1930, the Tribe petitioned the United States 
to approve legal representation by private attorneys to represent the 
Tribe against Tacoma. See Petition to the Secretary of the Interior, 
Department of Indian Affairs, Washington, DC by George H. Adams et al 
(August 17, 1930). On October 10, 1930, the acting Commissioner of 
Indian Affairs refused the Tribal members' request for legal 
representation, and reported that ``steps that have already been taken 
by the Department of Justice to protect their interests.'' See Letter 
from Henry Scattergood to Nicholson, Superintendent, Taholah Agency 
(October 10, 1930). There were no such steps.
    Meanwhile, on September 13, 1930, tribal members sued in state 
court to enjoin Tacoma from diverting the North Fork out of its 
watershed. See Complaint, Henry R. Allen, et al, Mason County Superior 
Court (September 13, 1930). Two days later, tribal members--including 
my great-grandfather--on behalf of themselves and the Tribe sued in 
Federal district court to enjoin Tacoma, arguing that the diversion 
would ruin their salmon fishery, and diminish their treaty fishing 
rights, thwart a primary purpose of the reservation, and irreparably 
destroy their principal means of livelihood. Complaint, Adams v. City 
of Tacoma, Case No. 428 (W.D. Wash. 1930). The Federal district court 
dismissed the Tribe's suit against Tacoma holding that the Tribe could 
not represent itself and could only be represented by the United 
States. Adams v. City of Tacoma, Case No. 428 (W.D. Wash. 1930).
    Following this dismissal, the Tribe was forced to rely solely on 
the United States as trustee to protect its interests. However, the 
United States declined to bring suit, or take any other form of action, 
to protect the Tribe's rights. In 1934, Assistant U.S. Attorney General 
Harry W. Blair informed U.S. Attorney for Western Washington, Charles 
J. Dennis that the United States had a right to bring suit for damage 
to the Skokomish Indians' treaty rights and cited a July 7, 1934 report 
evidencing significant damage resulting from the diversion of the North 
Fork Skokomish River. See Letter from Harry W. Blair Assistant Attorney 
General to J. Charles Dennis, U.S. Attorney (September 15, 1934). 
Assistant Attorney General Blair directed U.S. Attorney Dennis to 
investigate the matter, determine the extent of damage, and bring legal 
action if warranted. Id.
    However, U.S. Attorney Dennis had served as attorney to the city of 
Tacoma from 1920-1923 and again from 1928-1932. In that capacity, he 
represented Tacoma in cases relating to the Cushman Project and the 
damming and diversion of the North Fork. In September 1934, in what is 
clearly an ethical violation and conflict of interest, U.S. Attorney 
Dennis recommended against the United States filing suit against Tacoma 
for the purpose of protecting the Tribe's fishing rights. See Letter 
from Charles Dennis, U.S. Attorney to U.S. Attorney General (September 
24, 1934).
    In 1935, the Assistant Secretary of the Interior agreed with 
Tacoma's former attorney's recommendation that no legal action would be 
taken by the United States on behalf of the Tribe to protect the 
Tribe's rights against the damming and diversion of the North Fork 
Skokomish River. See Letter from Oscar Chapman, ASIA, to U.S. Attorney 
General, (October 1, 1935).
    d. impact on the skokomish reservation for the trustee's failure
    As a consequence, Tacoma operated this facility without any 
``significant license conditions.'' City of Tacoma v. FERC, 460 F.3d 
53, 66 (D.C. Cir. 2006). The failure of Interior to exercise its 
statutory duty to impose any--let alone ``appropriate-license 
conditions'' in 1924 resulted in the destruction of the once plentiful 
Skokomish North Fork fisheries, the flooding of almost 30 percent of 
the Skokomish Reservation and the continued degradation of the entire 
Skokomish Watershed and the destruction of treaty protected cultural 
and wildlife resources. Skokomish Indian Tribe v. United States, 410 
F.3d 506, 509-510 (9th Cir. 2005) (en banc).
    The dewatering of the North Fork completely destroyed the salmon 
run up what was once a premier Tribal as well as a sports fishery, with 
grievous economic and cultural consequences for the Tribe. See City of 
Tacoma v. FERC, 460 F.3d 53, 62 (D.C. Cir. 2006); Skokomish Indian 
Tribe v. United States, 410 F.3d 506, 509-510 (9th Cir. 2005) (en 
banc). See also Washington v. Wash. State Commercial Passenger Fishing 
Vessel Ass'n, 443 U.S. 658, 686 (1979) (the Treaty of Point No Point 
entitles the Tribe an opportunity to harvest up to a maximum of 50 
percent of harvestable resources).
    In terms of direct impact on the Skokomish Reservation itself, the 
dewatering of the North Fork resulted in an approximately 40 percent 
reduction in the flow of the Skokomish River mainstem. The decreased 
flows in the mainstem greatly contributed to the massive siltation of 
the River, because it resulted in significant aggradation--which occurs 
whenever deposits of sediment cause the floor of a river to build up 
over time because of the absence of flushing flows. This aggradation 
caused almost one-third of the Reservation lands to be flooded, and 
resulted in the failure of septic systems, contamination of wells, 
blocked fish migrations, damaged Reservation orchards and pastures, and 
the silting over of fisheries and shellfish beaches. Skokomish v. 
United States, 410 F.3d at 509-510; see also id. at 521 (Graber, J., 
dissenting quoting technical analyses opining that dredging the channel 
could lessen, halt or even reverse the aggradation).
    The Department of the Interior's Report to FERC, in connection with 
the re-licensing of the Project, estimates that the aggradation reduced 
the conveyance capacity of the mainstem from pre-Project levels of 
18,000 cfs to approximately 5,000 cfs. Prior to the Project, the 
Skokomish River flooded approximately once every 1.3 years. Now the 
River is subject to flooding more than 10 days a year every year. In 
all, 27 percent of the Tribe's Reservation land is repeatedly flooded 
and has therefore become useless. When the news shows the pictures of a 
fish swimming across the road--that is the Skokomish River. See Picture 
of Fish Crossing the Road, Exhibit B.

                               EXHIBIT B
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    .epsThe Skokomish River estuary was also negatively impacted by the 
loss of river flow. The Skokomish River estuary is part of the Puget 
Sound Estuary system, which is classified as an estuary of national 
significance under the National Estuary Program of the Clean Water Act, 
33 U.S.C. Sec. 1330. By impounding and diverting the North Fork 
Skokomish River out of its watershed, the Cushman Project severely 
reduced freshwater and nutrient inflow and altered sediment and 
salinity regimes, with the consequent adverse impact on the biological 
productivity of the Skokomish River estuary, inter-tidal delta, and 
Hood Canal. The Washington Department of Fish and Wildlife's 
Recommendations on Terms and Conditions on the Project's re-licensing 
stated that the Skokomish River Estuary on the Reservation was an 
excellent shellfish gathering ground for Tribal members. But as a 
consequence of the Cushman project's operations, the shellfish beds on 
the Skokomish River Estuary have been greatly reduced in size and 
productivity. The degradation of the Estuary is a result of both 
increased siltation and the septic contamination of the Estuary.
    Wildlife populations were also severely impacted by the operation 
of the Cushman Project. The greatest impact has been upon the migratory 
deer and elk herds that historically wintered in the valley of the 
North Fork. The two reservoirs created by the Cushman Project inundated 
important wintering areas. The destruction of these traditional 
wintering areas has contributed substantially to the declining 
populations of deer, elk, and other game and non-game wildlife in the 
vicinity of the project. Finally, the flooding caused by the Project 
has destroyed numerous tribal historical and cultural sites.
               e. the re-licensing of the cushman project
    Given the failure of the United States to uphold its responsibility 
under the Federal Power Act to impose any conditions, the Tribe had to 
wait until the Project came up for licensing again in 1974 to address 
the impact of this Project on the Tribe and its Reservation.
    On November 5, 1974, Tacoma filed its application for a new 
license. 84 FERC, para. 61,107 (1998). The Tribe intervened 1 year 
later to ensure that the United States would not once again abdicate 
its responsibility to the Tribe and sought conditions on the new 
license that would protect the Skokomish Reservation. Id. at 61,536.
    As stated in the FERC initial re-license for the Project in 1998: 
``Commission action on the Cushman Project license application has been 
delayed by a series of matters, including the lack of prerequisite 
water quality certification; the enactment of the Electric Consumers 
Protection Act of 1986; the requirements of special legislation to 
remove National Park status from a corner of the Project reservoir; 
disputes over compliance with the National Historical Preservation Act; 
a 1 year deferral of the deadline for Federal agencies to refer the 
Commission staff's Environmental Impact Statement to the Council on 
Environmental Quality for review of the EIS's adequacy; and an 
eleventh-hour Endangered Species Act issue.'' Id.
    Thus, there was a great deal of time between when Tacoma filed for 
a license and when FERC issued its initial new license in 1998. But the 
fault was not that of the land management agencies and their 4(e) 
conditions. Moreover, the delay in re-licensing only benefited Tacoma. 
From the time the license expired in 1974 until a renewal license was 
ultimately issued, Tacoma was able to operate the Cushman Dam as it had 
been operated since 1930. City of Tacoma, 460 F.3d. at 60. Essentially, 
what Tacoma received was not a 50-year license, but an 86-year license 
to operate the project wholly free from all terms or conditions that 
might otherwise protect the environment, natural resources, or the 
Skokomish Tribe's Reservation and Treaty rights. Id. at 61.
    While the license was pending renewal, the Tribe used this time to 
knock on every door of the Federal Government to ensure that the 
Federal Government did not once again ignore its responsibility to the 
Tribe. In doing so, the Tribe actively pushed Interior to move forward 
with 4(e) conditions that would protect the Reservation and the Treaty 
protected resources. The Tribe did this because Interior is the only 
Agency that can impose 4(e) conditions to protect Indian Reservations. 
Thus, it was imperative that the Tribe convince Interior to impose 4(e) 
conditions.
    Ultimately, the conditions that Interior put forward were far less 
than what the Tribe wanted or believed were necessary, but at least the 
trustee finally acted. See Letter from Willie R. Taylor, Director, 
Office of Environmental Policy and Compliance, Department of the 
Interior, to Lois D. Cashell, Secretary FERC, Re Cushman Hydroelectric 
Project, Project No. 460, forwarding DOI section 4(e) conditions for 
the adequate protection and utilization of the Skokomish Indian 
Reservation (August 4, 1997). Despite this, FERC rejected Interior 
conditions, asserting that Interior had missed FERC's unilaterally 
imposed 60-day deadline. See 84 FERC para. 61,549. Further, 
notwithstanding the well-documented adverse impacts that this Project 
had on the Skokomish Reservation, FERC took the position that Interior 
only had the authority to impose conditions on a discrete and very 
small portion of the Project, namely that being the transmission line 
right-of-way located on the Reservation. Id.
    Both the Tribe and City filed petitions to review the Cushman 
Project license in the U.S. Court of Appeals for the D.C. Circuit 
Court. In this case, it was the Tribe who defended Interior's authority 
to impose 4(e) conditions, not the Federal agency itself. Once again, 
our trustee abdicated its responsibility. See City of Tacoma, 460 
F.3d.53 (D.C. Cir. 2006).
    In this landmark case, the D.C. Circuit held that FERC must include 
the Interior Department's Section 4(e) conditions in any license it 
issues for the Project. City of Tacoma v. FERC, 460 F.3d 53, 64-67 
(D.C. Cir. 2006). The Court of Appeals held that FERC ``exceeded its 
statutory authority by placing a strict time restriction on 
responsibilities Congress delegated other Federal Agencies.'' Id. at 65 
(``FERC took all the time it needed--a full 24 years . . . Interior, in 
contrast, produced its license conditions within about 3 years.'').
    The Court of Appeals also rejected FERC's argument that the 
Secretary's Section 4(e) conditions must be limited to the impacts of 
the Project facilities actually located on reservation lands. Relying 
on the Supreme Court's decision in Escondido Mut. Water Co. v. LaJolla 
Band of Mission Indians, 466 U.S. 765 (1984), the Court concluded 
instead that since some of the Project facilities are located on 
reservation land, the Secretary may impose any ``conditions that are 
designed to mitigate the effect of the project on the Skokomish River 
to the extent doing so is reasonably related to protecting the 
reservation and the Tribe.'' City of Tacoma, 460 F.3d at 67. The Court 
then remanded the case for further proceedings, leaving open the 
opportunities for: (1) FERC to ``express its disagreement'' with the 
conditions and seek to persuade Interior to modify them; (2) FERC to 
deny a license; and (3) the City to litigate the reasonableness of the 
conditions. Id.
    This legal victory for the Tribe, the first consequential decision 
since the Tribe began its fight against this Project, created an 
opportunity for the Tribe, Tacoma, the Federal Government and the state 
agencies to reach a global settlement for the future operation of 
Cushman Project, including Interior's 4(e) conditions. The global 
Settlement Agreement was signed by the parties in January 2009 and FERC 
issued a new 40-year license to Tacoma in July 2010.
    Today, the Tribe, Tacoma, the state and the Federal agencies are 
true partners in the hydropower operations on the Skokomish River. The 
benefits of the Settlement Agreement and new license, included 
increased carrying capacity on the Skokomish River, improved fish 
habitat, improved fish passage, restoration of salmon populations, 
including two hatcheries to reintroduce salmon to the North Fork; 
restoration of wildlife habitat, and restoration lands and cultural 
sites to the Tribe. See Cushman Hydroelectric Project Settlement 
Agreement Highlights, Tacoma Power, TPU, Exhibit C.

                               EXHIBIT C
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                           .epsf. conclusion
    There can be no doubt that this settlement only happened because 
Interior's authority to impose 4(e) conditions necessary to protect the 
Skokomish Reservation was upheld by the Court. The title of this 
hearing today is ``Realizing the Potential of Hydropower as a Clean, 
Renewable, and Domestic Energy Resource.'' While hydropower may be 
clean and renewable, policymakers must consider that hydropower 
development can have devastating and in some cases irreversible impacts 
on people and resources.
    The Skokomish Tribe bore the brunt of the cost of generating power 
at the Cushman dam for 86 years, even when there was a provision of the 
law that allowed the Federal Government to protect the Reservation. 
Today, unlike the 1920s, the Federal land management agencies better 
recognize their responsibility to balance the interest of energy 
development against their responsibility to protect the lands and 
resources that are a part of the public trust. This balance that is 
required by Section 4(e) is necessary for the United States to fulfill 
its solemn trust responsibility to Tribes to protect our homelands and 
our resources that were promised to us in the Treaties that we signed 
when we turned over millions of acres of land. Today, the Cushman 
Settlement is a model example of what is possible when this balance is 
made. The Skokomish Reservation is already seeing the benefit of the 
settlement through the ongoing restoration of the Skokomish River 
Estuary; restoration of historic land back to the Tribe; and soon a 
Sockeye hatchery will be open and because of this Sockeye will once 
again run up the North Fork of the Skokomish River.

    Thank you for the opportunity to testify.

                                 ______
                                 

    Dr. Gosar. Thank you, Ms. Pavel.
    Ms. Matlock, you are recognized for 5 minutes.

STATEMENT OF JESSICA MATLOCK, DIRECTOR OF GOVERNMENT RELATIONS, 
   SNOHOMISH COUNTY PUBLIC UTILITY DISTRICT NO. 1, EVERETT, 
                           WASHINGTON

    Ms. Matlock. Good afternoon, Chairman Gosar, Ranking Member 
Huffman, and members of the subcommittee. My name is Jessica 
Matlock, and I am the Government Relations Director for 
Snohomish Public Utility District. We are located in Everett, 
Washington, which is north of Seattle.
    We serve a population of over 775,000 people, including 
critical industries like Boeing, and we have a local naval 
base. We serve our customers using 93 percent carbon-free 
energy, most of which is hydropower--that is 81 percent. We are 
also Bonneville Power Administration's largest customer. Our 
only carbon sources come from market purchases, our biomass 
clients, or from what BPA acquires.
    In 2007, our elected board of commissioners adopted a 
climate change policy. That policy committed us to achieving 
all cost effective conservation and all future load go through 
renewable resources. As a result, we have aggressively 
implemented energy efficiency. We have added solar, wind, and 
more hydropower to meet these demands. But we did not stop 
there. We also researched and obtained a FERC license for one 
of the first-ever tidal energy projects in the Nation. We also 
drilled for geothermal, and we continue to look for it. We have 
installed and we are installing our third utility-scale battery 
storage system, as well.
    But now I will talk about our baseload generation of clean, 
renewable hydro. In 2011, we completed the first Federal Energy 
Commission re-licensing of 112 megawatt hydroelectric project. 
I want to talk about two very important attributes of this 
project. The facility also serves as a water supply for the 
city of Everett, and it was certified as low impact by the Low 
Impact Hydropower Institute in 2011.
    We use this facility to also adapt to the changes in 
climate, protecting downstream fisheries resources, and I will 
give you a specific example. Just last summer, during our 
drought, it provided us powerful ability to regulate stream 
temperatures and flows to protect fish. If there was no dam, 
temperatures actually would have reached 75 degrees, and 
resulted in extremely low flows, as happened in adjacent 
rivers. And these conditions are lethal to fish.
    We are one of the only utilities in the Nation still 
developing new hydro and its small hydropower. In fact, in 2011 
we completed the first hydropower project in nearly 20 years in 
the state of Washington. It was a 7\1/2\ megawatt run-of-the-
river project, which also became certified in 2012 to meet 
California's RPS standards for low-impact hydro.
    In 2015, we constructed two 6-megawatt run-of-the-river 
projects which are free-flowing, and they are located above 
natural fish passage barriers. We are currently in the FERC 
preliminary process to construct a 30-megawatt--again--run-of-
the-river project which requires no dam, weir, or other river 
barrier.
    Hydropower projects can be built consistent with 
environmental values, and are an important tool in adaptive 
management, due to our changing climate. So what now for 
Snohomish?
    Our energy demand continues to grow. In order to meet our 
climate policies, we must find and build new renewables. 
However, we cannot rely on energy efficiency, and we cannot 
rely on intermittent renewables, like solar and wind, because 
of the complicated nature of the grid. The grid has to have 
stability attributes, such as voltage support, reactive power, 
and spinning reserves. These cannot typically be supplied by 
intermittent renewables.
    The only option we are left with is firm baseload power, 
and that is through the form of nuclear, gas, hydropower, and 
coal. But our own state policies prohibit building new coal 
plants, and our future state clean air rule is proposing to 
phase out and prohibit all gas plants. New nuclear interstate 
is not an option, so we are left with clean, renewable 
hydropower, but with an outdated and sometimes prohibitive 
regulatory framework.
    As with anything, we should learn from the past and modify 
practices based on continued progress and improvement. In the 
modern era, we need to recognize the need for renewables and 
emissions-free energy sources. We need to modernize our 
regulatory processes and obtain better coordination. One 
example that we recently went through that we had issues with 
was a tidal energy project, the first ever in the Nation. It 
succumbed to current outdated process. This was our project. We 
spent 8 years trying to get this permitted. It was only 
supposed to take 6 years. We actually had to end the projects 
because of costs escalating beyond our control because it took 
us 8 years.
    What other public utility has taken a bold step forward to 
research and develop new clean energy? This possibly 
revolutionary project died because of the delays that resulted 
from overlapping Federal and state environmental permitting 
processes. Now the PUD is working on a free-flowing, small 
hydroelectric project with no dam located above natural fish 
passage barriers. And yet, we expect the process to take 10 
years and face some of the same issues.
    So, how is a green utility supposed to meet low growth? 
Ironically, the PUD could have taken the easy route by building 
an efficient gas plant, which would have taken far less time 
than building our hydro projects. We are not asking to 
circumvent nor erode environmental regulations. My last point, 
we are just asking you to update and modernize the FERC 
licensing process. Without improvement to this process, the PUD 
may have no choice but to abandon our carbon-free policies and 
priorities, and rely back on fossil fuels. Thank you.
    [The prepared statement of Ms. Matlock follows:]
 Prepared Statement of Jessica Matlock, Government Relations Director, 
                Snohomish County Public Utility District
                              introduction
    Good afternoon, Chairman Fleming, Ranking Member Huffman, and 
members of the subcommittee. My name is Jessica Matlock and I am the 
Government Relations Director of the Snohomish County Public Utility 
District (PUD) located in Everett, Washington. The PUD is the largest 
PUD in Washington, the second largest publicly owned utility in the 
Pacific Northwest, and the 12th largest in the country in terms of 
customers served. In addition to a population of 775,000 people, the 
PUD serves critical industries including Boeing and a local naval base.
    The PUD serves its customers using 93 percent carbon-free resources 
comprised of hydropower (80 percent), wind, solar, biogas and biomass. 
We are the largest utility power purchaser from the Bonneville Power 
Administration (BPA) which markets power from the Federal hydroelectric 
system in our region. Our only carbon sources come from market 
purchases.
    In 2007, the PUD's Board of Commissioners adopted a climate change 
policy, with a commitment to meet load growth first through all cost-
effective conservation, then with a diverse mix of renewable resources. 
As a result, we have aggressively implemented energy efficiency, and 
added solar, wind and more hydropower to meet the demands of our 
customers. The PUD also is a leader in the development of new energy 
storage projects that are standardizing the way this technology is 
managed to make it more operationally and economically viable.
                       hydroelectric development
    In addition to BPA hydro purchases, the PUD takes 20 percent of the 
power from the 27.5 megawatt (MW) Packwood Hydroelectric Project. The 
PUD also self-generates a significant amount of clean, renewable 
hydropower. In 2011 we completed the successful Federal Energy 
Regulatory Commission (FERC) re-licensing of our 112 MW Henry M. 
Jackson Hydroelectric Project which also provides water supply to the 
city of Everett. The PUD also owns the .65 MW Woods Creek Hydroelectric 
Project.
    In addition, the PUD is one of the few utilities in the Nation that 
is aggressively developing new, small hydropower. Small, run-of-the-
river hydropower projects can provide an important source of emissions 
free, renewable power. The PUD recently built the first hydropower 
project in Washington State in 20 years, and licensed two more projects 
in 2015 that are now under construction. The Youngs Creek Hydroelectric 
Project, which went on-line in 2011, is a 7.5 MW run-of-the-river 
facility generating enough power for about 1,500 homes. It received 
Renewable Energy World magazine's 2012 Hydro Project of the Year award 
and the 2012 American Society of Civil Engineer's Outstanding 
Achievement Award. The PUD's Calligan Creek and Hancock Creek 
Hydroelectric Projects, which received FERC licenses in 2015, are under 
construction. Calligan and Hancock are each 6 MW, run-of-the river 
renewable resource facilities.
    The PUD currently is in the FERC preliminary permit process for the 
Sunset Fish Passage and Energy Project located on the South Fork 
Skykomish River. Sunset is proposed as a 30 MW, run-of-the-river 
renewable resource facility and is unique in that we have developed an 
innovative plan that utilizes natural water features to avoid the need 
for any dam, weir or other river barrier.
                    need for regulatory improvements
    We have proven that small hydropower projects can be built 
consistent with environmental values. However, the PUD's load will 
continue to grow and the PUD will need to find ways to meet this 
demand. The PUD's current portfolio of small hydropower projects 
consists of minimal impact projects which had been previously licensed 
by FERC. The PUD has consistently prioritized for development 
hydropower sites that would be low-impact. For the PUD to expand its 
portfolio, it is important to have a licensing process that works for a 
range of smaller projects.
    Hydroelectric power is our Nation's largest renewable. However, the 
negative stigma of a bygone era of dam-building with insufficient 
thought to fish, water quality, and the interests of Native American 
tribes has left a regulatory process that has swung too far in the 
other direction. In a modern era where we recognize the need for 
renewables and emissions free energy sources, it makes no sense to 
continue to subject hydropower development to a complicated, many 
years-long licensing and permitting process.
    For new proposed projects, licensing and permitting delays mean 
increased costs and uncertainty, and can prevent low-impact, 
environmentally sustainable projects from ever being developed.
    After 8 years of regulatory delays in a FERC pilot license process 
that was supposed to take 6 months to approve one of the first tidal 
energy projects in the Nation, the PUD was forced to shutter the 
project after costs escalated beyond our ability to fund it. In 
addition, project opponents were able to delay the project through the 
complex and overlapping Federal and state environmental permitting 
processes to employ a strategy of ``winning while losing.'' Now, the 
PUD is working on a free flowing, small hydroelectric project with no 
dam or impoundment located above natural fish passage barriers, yet we 
expect the process to take 10 years, and face some of the same issues 
with overlapping regulations.
                           proposed solutions
    The PUD advocates a more streamlined, coordinated licensing and 
permitting effort managed by FERC to add more structure and certainty 
to the process. Timelines for the hydropower licensing process need to 
be tightened in order to keep viable, low-impact projects from being 
dropped based on the up-front costs to complete studies and protracted 
Federal and state permitting. For these reasons, the PUD supports the 
hydropower licensing improvements contained in the comprehensive energy 
bills, S. 2012 and H.R. 8. The PUD urges Congress to send legislation 
to the President's desk this year adopting these reforms.
                               conclusion
    How is a green utility supposed to meet load growth and demand, 
while also meeting the goal of being carbon-free? The PUD cannot meet 
even current demands solely through energy-efficiency and intermittent 
renewables. The PUD could have taken the easy route by building an 
efficient gas plant, which would have taken far less time than going 
through the FERC hydropower licensing process. For the PUD to meet its 
environmental policies and goals, that process needs to be streamlined 
and improved. Otherwise, the PUD may find that its current policy of 
pursuing renewables in place of fossil fuels to be prohibitively costly 
with an associated level of uncertainty simply too high for a load-
serving entity like Snohomish to effectively manage.
    I appreciate the opportunity to relate Snohomish County PUD's 
experience and challenges in developing clean, renewable hydropower for 
our customers.

                                 *****

                 supplement to ms. matlock's testimony

Keeping Things Chill for Fish in the Sultan
Snohomish County PUD
Highlights, by Bob Bolerjack
October 23, 2015
As the operator of the Jackson Hydroelectric Project and Culmback Dam, 
the PUD embraces its stewardship role on the Sultan River.

A great example occurred this summer. A lack of run-off from the 
mountains following a warm winter combined with several blistering hot 
days to produce dangerous and, in some cases, deadly conditions for 
fish throughout the region. At particular potential for risk in the 
Sultan River were juvenile coho and steelhead, species that spend their 
first year of life in the river before heading out to sea.

As resilient as these species are, they're actually pretty fragile when 
it comes to water temperature. As rivers became too warm this summer, 
fish mortality rates rose in many of the region's rivers.

But not in the Sultan. Controlled releases of water by the PUD from 
Spada Lake reservoir behind Culmback Dam kept temperatures in the 
Sultan below 60 degrees, just where fish need it.

Managing the flows was a delicate balancing act this year. During the 
warmer weather months of April through October, Spada Lake typically is 
stratified, meaning the water has layers of descending temperatures--
warmer toward the top, cooler toward the bottom. To take advantage of 
that, the dam features a selective withdrawal structure--panels that 
can be opened and closed to release water at four different levels.

That flexibility is important, because keeping the river cool all 
season long isn't a matter of simply releasing water from the bottom of 
the reservoir.

``We don't want to take too much from the bottom,'' said Senior 
Environmental Coordinator Larry Lowe. ``We need to keep some cooler 
water in reserve in case we need it in September when adult fish are 
returning to spawn.''

When conditions were at their most challenging this summer, Larry and 
Natural Resources Manager Keith Binkley were monitoring water 
temperatures frequently.

Probes at key points along the river provide readings every 20 minutes. 
By making adjustments to flows day-to-day during critical periods, they 
succeeded in maintaining their target of about 60 degrees.

``Throughout the summer, we were making lots of adjustments,'' Keith 
said. ``By selecting water deeper in the reservoir, we made sure that 
throughout that hot period the fish weren't stressed and had optimal 
rearing conditions.''

But it was especially challenging this year as the water surface 
elevation in the reservoir dropped throughout the summer.

The controlled releases complemented a PUD project from three years 
ago, when the utility created new habitat for juvenile coho and 
steelhead by constructing side channels on the Sultan where young fish 
could grow and thrive.

``The water tends to be warmer there because it's so shallow,'' Larry 
explained. ``But even there, we were able to manage the temperature 
through controlled releases from the reservoir.''

In a series of frequent checks throughout the summer, no dead juvenile 
fish were found in the Sultan. The side channels have clearly proven 
their value in protecting young coho and steelhead.

``It's kind of like we've created this Shangri-La for juvenile fish,'' 
Keith said. ``There's nothing like it in the neighboring water bodies. 
So we'd expect that the juvenile fish in the Sultan would be in better 
condition, would grow better, and not be thermally stressed when they 
finally do migrate down.''

It also illustrates the value of Culmback Dam, beyond providing the 
fuel for power generation and drinking water for most of Snohomish 
County.

``The beauty of the Jackson Project is that it's a relatively modern 
facility,'' Keith explained. ``At a lot of the older dams, they would 
just build the intake at a fixed elevation where they could always 
deliver water, but that water would be extremely cold--too cold for a 
productive fishery.''

Eventually as the reservoir dropped during the summer it would go from 
cold to warmer and warmer.

``When Jackson was upgraded in the 1980s, there was a greater 
understanding of the impact of temperature on fish, and the upgrade 
included a variable release option.''

If there was no dam at all on the Sultan, temperatures this summer 
would have been similar to those on the neighboring Skykomish, which 
reached a lethal (to fish) 75 degrees.

``One of the benefits of dams is being able to have this cool water, 
especially in a warm year like this,'' Larry said. ``It was a really 
great thing this year.''

Even resource agency folks who are generally opposed to regulated 
systems were heard to say that years like this one should make us 
appreciate the regulation provided by reservoirs.

                                 ______
                                 

   Questions Submitted for the Record by Rep. Huffman to Ms. Jessica 
       Matlock of Snohomish County Public Utility District No. 1

Ms. Matlock did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

    Question 1. Hydropower is one of several renewable, non-fossil fuel 
energy sources, but the construction and maintenance of dams can bring 
with it several negative environmental impacts, not only to fish and 
wildlife but through greenhouse gas emissions as well. These impacts 
include:

    <bullet> The emission of methane from reservoir surfaces, turbines 
            and spillways,

    <bullet> Submerging and destroying large areas of carbon capturing 
            forests and grasslands,

    <bullet> Blocking the flow of critically needed sediment to feed 
            starved coastal wetlands and beaches at risk from sea level 
            rise,

    <bullet> Impeding wildlife migration routes essential for climate 
            adaptation, and

    <bullet> Exacerbating the negative climate impacts on water 
            quality, stream flows, and water loss due to reservoir 
            evaporation.

    How does the Snohomish County Public Utility District No. 1 address 
these broader issues related to species viability, methane emissions, 
sediment loads, and reservoir evaporation?

                                 ______
                                 

    Dr. Gosar. I thank the witnesses. At this point we will 
begin our questions for the witnesses. To allow all Members to 
participate, and to ensure we can hear from all of our 
witnesses today, Members are limited to 5 minutes on their 
questions. However, if Members have additional questions, we 
can have additional rounds if time allows us, or they can 
submit their questions for the hearing record.
    After the Ranking Member and I pose our questions, I will 
then recognize Members alternatively on both sides of the 
aisle, in order of their seniority. I now recognize myself for 
5 minutes of questioning.
    Ms. Matlock, Mr. Boyd, and Ms. Powell, both the House and 
Senate energy bills have hydro re-licensing reforms. Do any of 
the remedies in either of the House or Senate bills undermine 
environmental protections or compromise tribal reservations?
    Ms. Powell?
    Ms. Powell. Thank you. No.
    [Laughter.]
    Dr. Gosar. OK. Mr. Boyd?
    Mr. Boyd. I will echo the no, certainly. My understanding 
and read of the legislation is that it improves the process and 
leaves mandatory conditioning within the process, and it would 
have agencies engaging in the process sooner, rather than 
waiting for the end and bringing new information forward.
    Dr. Gosar. How about you, Ms. Matlock?
    Ms. Matlock. No. We feel that the process creates a more 
timely and predictable process. In no way, shape, or form do we 
want to erode those environmental regulations.
    Dr. Gosar. My next question will go back in reverse order 
now. Is the status quo on Federal re-licensing acceptable, Ms. 
Matlock?
    Ms. Matlock. No. Again, as I have proven out, it is 
actually stifling innovation.
    Dr. Gosar. Mr. Boyd?
    Mr. Boyd. I would agree, it is stifling. We certainly work 
within the process, as it is defined now. But I do believe 
there are incremental improvements that could be made.
    Ms. Powell. And I agree, no. And to emphasize Ms. Matlock's 
points earlier, the way the process is right now, it is 
extended and it is prolonged. There are extensive costs that 
are essentially interest of the initial investment in that 
process that all of your constituents and my customers end up 
paying for.
    Dr. Gosar. Well, we are going to go back to the same three. 
Not one of you has suggested that the existing process must be 
turned upside down. Each of you testified that some modest 
improvements could be made to make the process more transparent 
and timely. Will these process changes harm the environment? 
Ms. Powell?
    Ms. Powell. No, I don't think so. PG&E really believes our 
natural resources need to be protected. We live in the same 
area where our company is. My employees live and recreate in 
the areas of the 16 rivers that we have projects on. We really 
value the beauty and the nature that exists there. The process 
modernizations that we have long supported do not allow FERC or 
hydro licensees to avoid compliance with the Endangered Species 
Act, the Clean Water Act, or any other Federal land management 
status.
    Dr. Gosar. How do you feel, Mr. Boyd?
    Mr. Boyd. I certainly concur. As I mentioned in my 
testimony, we hold ourselves rightfully to a very high standard 
related to environmental stewardship at TID. And I think the 
incremental changes we are looking for in hydro re-licensing 
are Federal agencies to hold themselves to that same high 
standard of open and transparency in the process.
    Dr. Gosar. How about you, Ms. Matlock?
    Ms. Matlock. I would just echo Mr. Boyd and Ms. Powell. But 
I would say that, again, we all live in this area, Snohomish, 
in particular, has the climate change policy which protects the 
environment. We prioritize our projects that look to create a 
limited amount of impact.
    Dr. Gosar. OK. Same three, and we will go back in reverse 
order.
    Now, some have suggested amending Federal law to ensure 
that conditions imposed by natural resources agencies have a 
direct nexus to the proposed project. This seems like common 
sense to me, as why should rate payers pay for something that 
is not related to a hydropower project? Do you agree with this? 
And why, Ms. Matlock?
    Ms. Matlock. Yes, of course, we believe in a more focused 
decisionmaking process. We think there should be nexus. But 
again, that is why we support the efforts of FERC to create a 
more coordinated effort.
    Dr. Gosar. Mr. Boyd?
    Mr. Boyd. I concur. There has to be a project nexus. FERC 
has seven criteria to create that nexus, and we believe 
creating the public record as part of the process would allow 
the agencies to accomplish that.
    Dr. Gosar. Ms. Powell?
    Ms. Powell. We agree. There are many situations where there 
are license conditions that are proposed that are well outside 
the impacts of the operations of our facilities in those 
rivers, and those seem to be an unnecessary burden to our 
customers.
    Dr. Gosar. I thank you. And look at the good example I 
left, 12 seconds there.
    I now recognize Mrs. Napolitano for her 5 minutes.
    Mrs. Napolitano. Thank you, Mr. Chairman. It is very 
interesting hearing hydropower, because I have been working on 
recycling and other ways to combat the drought in California. 
So, I am glad to hear there is a lot going on in hydropower.
    Mr. Boyd, Azusa Light and Water in my district operates a 
hydropower plant which receives water through a 6-mile 
underground conduit on Federal land, the Angeles National 
Forest, and that delivers 300,000 residents their water in the 
San Bernardino Valley with 3 megawatts of clean, renewable 
generation to Pasadena Water and Power. Seeing the ongoing 
drought and climate change, these deliveries are very much 
needed.
    Azusa and Pasadena are working to re-license their plant 
with FERC. However, they are concerned how the pending input 
from U.S. Forest Service might impact their deliveries. They 
might make the cities perform additional studies after their 
FERC application, which I understand is a 50-year application. 
Their experience in dealing with them has been challenging and 
frustrating by the lack of engagement and transparency by the 
agency. Do you concur?
    Mr. Boyd. I do. Although I am not intimately familiar with 
that project, it is my understanding that, like our project, it 
is a joint use project supplying both water and power to the 
region. And Azusa has tried to engage Forest Service on that, 
and had requests for studies that go well beyond the scope of 
the project.
    That is about as much as I know on that, but it certainly 
dovetails with my experience on the Don Pedro Project with lack 
of engagement in the process in the beginning, and fear that 
there will be requests for further studies after the record is 
complete.
    Mrs. Napolitano. Well, what suggestions would you make for 
improvement?
    Mr. Boyd. That resource agencies engage in good faith at 
the beginning of the process, and are part of the study-making 
procedure, and we develop a single record to be used in 
decisionmaking for re-licensing.
    Mrs. Napolitano. How much in advance?
    Mr. Boyd. We started in 2009. If we could have all been on 
the same page in 2009 creating a single record, we would be a 
lot farther than we are today.
    Mrs. Napolitano. Thank you. Ms. Powell, the hydroelectric 
systems not only provide clean, cost-efficient energy, but also 
provide for fish habitat and wildlife, and of course, 
recreational opportunities. What steps has PG&E taken to 
protect, preserve, and enhance these natural resources? You 
indicated you lived there and you liked to see them there, but 
what is PG&E doing to promote the well-being?
    Ms. Powell. Thank you, Congresswoman. One of the largest 
projects that PG&E has been involved in that involves 
recreation and wildlife is the Battle Creek Restoration 
Project, which is in the northern part of California. It is a 
really large project, where it really made sense to modify our 
flows--there will be eventual removal of a diversion--and 
restore the flows to the natural, original flows to promote 
fish.
    All of our licenses involve recreation opportunities for 
members of California. And one of our focus areas, as more and 
more Californians come out to recreate in and around our 
facilities, is assuring that they know how to do that in a safe 
manner.
    Mrs. Napolitano. I see. Do you work with the states to find 
out how well it can be done?
    Ms. Powell. We do.
    Mrs. Napolitano. Based on your industry experience, how do 
PG&E hydroelectric operations and procedures compare with other 
hydropower operations?
    Ms. Powell. We have benchmarked with other hydro operators, 
with similar facilities like ours, and with other industry 
associations, such as the National Hydropower Association and 
the Electric Utilities Cost Group. We find that we lead in many 
categories, including dam and facility safety and salmon and 
steelhead habitat restoration. We also find areas where we can 
learn from other industry leaders and improve our operations in 
that process.
    Mrs. Napolitano. Thank you.
    Ms. Pavel, thank you very much for being here. And I 
understand the frustration your tribe must have had.
    Ms. Pavel. Thank you.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Dr. Gosar. I thank the gentlelady from California. I just 
realized that Arizona is surrounded by California here.
    [Laughter.]
    Dr. Gosar. I now recognize the gentleman from California.
    Mr. McClintock. And we want our Colorado water back, Mr. 
Chairman.
    [Laughter.]
    Mr. McClintock. Ms. Matlock, I wanted to explore the point 
that you made with regard to these unprecedented wind and solar 
mandates that we are seeing in states like California. The 
problem that has been described to me is that wind and solar 
are intermittent sources. They can fall off dramatically the 
moment the wind dies or a cloud passes over a solar array.
    Since the electrical grid is integrated--that is we have to 
constantly match what is being drawn off the grid by putting 
more power on the grid--these intermittent sources require 
immediate backup availability. There are two ways of providing 
that backup ability. One of them is through hydro, where, with 
the flip of a valve, we can start generating power to meet the 
sudden drop-off in supply from wind and solar. The only other 
way are electrical generators that have to be kept at ready 
reserve. That is, constantly spinning. Not producing any 
electricity, but constantly spinning in the event that they are 
needed on a moment's notice. Is that essentially correct?
    Ms. Matlock. That is correct. One other technology is 
battery storage, but it is still too expensive. But yes, you 
are right.
    Mr. McClintock. And yes, exactly right--very, very 
expensive.
    Ms. Matlock. Correct.
    Mr. McClintock. So if we don't have hydropower available at 
a moment's notice, we have to spin these turbines at full 
power, burning fossil fuels in order to keep them spinning, 
even though they are not producing any electricity.
    Ms. Matlock. Correct.
    Mr. McClintock. Is it logical, then, to say we are going to 
tear down hydroelectric dams and replace them with wind and 
solar?
    Ms. Matlock. Well, for us, we are low deficit. So, in the 
future, we would have to build. So obviously, we will not be 
tearing down our dams, because they are a critical backbone for 
us.
    Mr. McClintock. Well, California and Oregon are intent on 
tearing down four perfectly good hydroelectric dams on the 
Klamath that are producing 130 megawatts of the cleanest and 
cheapest power on the planet. When I asked them how they plan 
to replace them, we were told, ``Oh, wind and solar.'' Does 
that make sense?
    Ms. Matlock. I cannot comment.
    [Laughter.]
    Mr. McClintock. Well, let me go on. You mentioned the 
impact of dams on riparian habitats. Could you describe the 
typical riparian habitat in a severe drought?
    Ms. Matlock. I am sorry, can you rephrase the question?
    Mr. McClintock. What happens to a riparian habitat in a 
severe drought?
    Ms. Matlock. Well, in particular to ours, the vegetation 
dries up--a lot of our riparian habitat are side channels for 
small fry----
    Mr. McClintock. Water temperatures go way up?
    Ms. Matlock. The water temperatures go down, the water 
levels go down----
    Mr. McClintock. They will go up in a drought.
    Ms. Matlock. The water--right, sorry. The water 
temperatures go up, like I mentioned, 75 degrees.
    Mr. McClintock. OK. And what happens to riparian habitat in 
a blow-out flood?
    Ms. Matlock. That is a good question. I would have to get 
back to you on that. I mean, obviously----
    Mr. McClintock. Let me ask you this. How do dams modify 
those extreme cycles of drought and flood?
    Ms. Matlock. That is a good question, and that is what our 
Jackson Hydroelectric Project does. We actually regulate it 
with different types of gates. We are constantly monitoring the 
flows in the river, so that we maintain fishery flows. So, in a 
time of a drought----
    Mr. McClintock. Which you couldn't do without the dams?
    Ms. Matlock. That is exactly right.
    Mr. McClintock. Mr. Boyd, how difficult is it to re-license 
an existing dam?
    Mr. Boyd. Well, we haven't done it to completion yet, so I 
can't answer fully. But it is proving to be lengthy and a bit 
frustrating at times.
    Mr. McClintock. And expensive?
    Mr. Boyd. And expensive. Over $20 million to date for 30-
plus studies.
    Mr. McClintock. Who pays for that expense?
    Mr. Boyd. Our ratepayers.
    Mr. McClintock. Those are the same folks that have to pay 
the added expense of running turbines at ready reserve and 
integrating wind and solar into their systems, is that correct?
    Mr. Boyd. That is correct.
    Mr. McClintock. Is that one of the reasons why California 
is paying among the highest electricity prices in the country?
    Mr. Boyd. I don't think I can answer that directly.
    Mr. McClintock. Ms. Powell, do you have any thoughts on 
that subject?
    Ms. Powell. We would have to get back to you on the cost.
    Mr. McClintock. Well, please do. But in the meantime, what 
does this re-licensing process get us? These are dams that have 
already been constructed, or are already functioning. We 
already do safety inspections on them, so these re-licensing 
steps are not necessary to assure public safety, we do that 
anyway. So what are we getting for all of that--$20 million in 
the case of your one instance? Mr. Boyd?
    Mr. Boyd. So far we are building a record of information 
which could show how the reservoir and the facility could be 
operated to improve the fishery.
    Mr. McClintock. And is that worth $20 million? And how many 
months have you been working on this?
    Mr. Boyd. We have been at this 7 years. I don't know that I 
can place a direct value on the monetary cost. But I can say, 
as the record has been created, I think it does show there are 
some clear things we can do to improve the fishery and move 
forward sooner, rather than later.
    Mr. McClintock. Thank you.
    Dr. Gosar. I thank Mr. McClintock, and I now recognize the 
gentleman from California, Mr. Huffman.
    Mr. Huffman. Thanks, Mr. Chairman. I am a little concerned 
that my friend, Mr. McClintock's Republican Party status might 
be revoked because in one fell swoop he managed to attack both 
states' rights and private property rights.
    It is true that California and Oregon, working together 
under existing law, under state law, are moving forward with a 
river restoration project. What was not mentioned, though, is 
that those four dams are owned by a private dam owner who wants 
to remove them. So, in one fell swoop we degrade violence to 
both states' rights and the idea that a private property owner 
ought to be able to dispose of their private property. Those 
are normally pretty major tenets of my colleagues across the 
aisle. But today they are being selectively targeted.
    I want to ask you, Ms. Pavel, about the experience you had 
with the Skokomish Tribe. It has not been mentioned today, but 
I think maybe I will ask you to speak to this. There is a 
unique aspect to the law that allows FERC, while an applicant 
is pursuing re-licensing, to get an unlimited number of annual 
licenses. In fact, I think the law requires them to grant an 
unlimited number of 1-year licenses on the original terms.
    Ms. Pavel. That is correct.
    Mr. Huffman. So, without any changes to address concerns 
such as the impacts you experienced to your tribe, could you 
sort of speak to that function of the law?
    Ms. Pavel. Well, no, that is absolutely correct. When 
Tacoma's license expired in 1974, FERC issued and continued to 
issue the annual licenses. Tacoma had the benefit of operating 
the Cushman Project as it was originally operational in 1930 
until the new license was issued in 2010. And we have heard a 
lot about how to improve the process.
    My tribe would have benefited if the process had been 
improved to go faster. If we could improve the role and the 
voice, and somebody said, ``Well, how do you make it go faster? 
'' I talked about how the tribe spent an inordinate amount of 
time making the Trustee engaged in the process. If we mandated, 
at least as to Indian reservations, that the Department of the 
Interior had to impose conditions to protect the purposes for 
which those Indian reservations were established, that would 
move the ball along a little faster.
    Mr. Huffman. Just out of curiosity, how many of these 
annual 1-year licenses on the original terms did you have to 
experience before the major impacts to your tribe finally got 
addressed in the re-licensing?
    Ms. Pavel. Twenty-four.
    Mr. Huffman. There were 24 separate annual renewals?
    Ms. Pavel. Yes.
    Mr. Huffman. Do you have concerns about the recently passed 
House energy bill and how that might limit the ability to 
quickly give consideration to tribal trust responsibilities and 
impacts to tribes?
    Ms. Pavel. I do. And again, I understand there is a desire 
to move this process along faster and to bring transparency to 
it. But my concern is the short time frame and the limited 
ability to get that timeline extended would result in Interior 
again abdicating its responsibility to the tribe. We cannot 
force Interior to impose conditions. And you well know that 
these agencies are so limited in their resources.
    As the chart shows, there are a number of these projects 
coming up from licensing, and there is a complete lack of 
capacity. There is the Cushman Project for everybody, and you 
can see that most of the project is off the reservation. I 
believe it is not the intent of the drafters, but it would 
likely result in Interior abdicating its responsibility to my 
tribe, because they do not have the capacity to get their work 
done in that time frame.
    Mr. Huffman. Right.
    Ms. Pavel. And that is unfortunate.
    Mr. Huffman. Under the final re-licensing product, you were 
able to get some major improvements to address your concerns 
for your tribe, right?
    Ms. Pavel. Absolutely. And, Tacoma is here today. And the 
tribe and Tacoma have really become partners in this operation 
and this project. When you hear about Skokomish or flooding in 
the Northwest, you see that picture in the news, that is the 
Skokomish River.
    But we talk about the highlights of the project, and it is 
fish passage, it is restoration of cultural and historic sites, 
it is in-stream flows that will address the flooding and 
increase channel capacity on the Skokomish River.
    Mr. Huffman. Thank you. I am out of time. But just very 
quickly, is there any doubt in your mind that with a weakened 
ability for the Department of the Interior to engage in those 
considerations you may not have all of those benefits?
    Ms. Pavel. There is no doubt.
    Mr. Huffman. Thank you.
    Dr. Gosar. I thank the gentleman. I now recognize the other 
gentleman from California, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. It is awesome to hear 
a discussion about property rights, especially in Northern 
California, where three of the four dams that are on the 
Klamath are in my district, and my Siskiyou County constituents 
have one state or Federal agency after another coming after 
them for water rights, property use, introductions of wolves, 
pretty much everything that makes their life miserable up there 
is happening in Siskiyou County.
    So, when I hear the so-called decision by PacifiCorp to 
remove dams that they want to, which is after much harassment 
over the dams not being able to be licensed, the state using 
the Clean Water Act, saying they are basically not going to get 
re-licensed, and the years of battle it takes to do that, when 
they finally succumb and surrender, that somehow that is them 
wanting to tear out the dams, and that could not be farther 
from the truth.
    And Mr. McClintock has it very correct in his statement, 
that this is not voluntary, and that it is going to remove much 
hydroelectric power, which, in California, is now mandating 
that 50 percent of its power has to be renewable by the year 
2030. Where is it going to come from? At the same time they are 
decommissioning windmills in the East Bay area, and you can't 
hardly get permits to build solar plants in the desert because 
of the desert tortoise, which already has 1.3 million acres set 
aside for desert tortoise protection. You can't hardly get a 
permit to do anything in California.
    And speaking to one of the PacifiCorp reps, they are not 
going to replace the dams with other hydropower in Northern 
California, they are not going to replace with hydropower 
anywhere. They may get solar. Are they going to build the solar 
in California? No, they are going to build it somewhere else. 
So, my constituents lose jobs, they lose tax base, they lose 
all the way around. Once again, Siskiyou County is being 
victimized by an attack on their property rights and states 
coming after them. So I guess when states and other government 
entities are coming after people, it is our job to stop freedom 
from being trampled.
    With that said, Ms. Powell, hydropower provides many 
benefits. We have heard it talked about--flood control, stored 
water, which means water for agriculture, water for people, and 
water for fish. And even now, since we have the luxury of 
regulating temperature in the river in the fourth or fifth year 
of a drought, it even provides cold water pools behind dams 
that we can talk about in this process. I will bet even the 
water behind the dams up on the Klamath is probably colder at 
the bottom than the river would be in drought.
    So, when we talk about the re-licensing and what it costs 
you, what it takes, you have license renewals that have taken 
between 7 years and I have heard even 28 years to get a renewal 
done. And Mr. McClintock said--I would like you to elaborate, 
please. What do we learn, since the dams are already in place, 
they have been built, they have safety checks and that type of 
regulation upon them. What do we learn from the stacks of 
documents and the years and the millions of dollars of re-
licensing? What is actually useful that comes out of that? Mr. 
Boyd touched on that. At the end of the day, what is going to 
be useful in helping us have better protocols of these long, 
drawn-out, expensive re-licensing processes?
    Ms. Powell. Thank you, Congressman. I think the biggest 
thing that we learn from the studies is the impact that our 
operations have had on the environment, whether it be biologics 
or river areas. The repeated studies, with minor differences in 
the things that the studies look at--and these studies take 
years----
    Mr. LaMalfa. So you can't get re-licensed until every study 
is done? Why so many years with the studies? Are we going to 
tear out the dam if we don't know? I mean should we tear out 
Shasta Dam, Lake Oroville, the Pitt River, everything on the 
Feather River because we don't know? Or why not just get 
licenses and learn as we go?
    Dr. Gosar. Some would like it.
    Mr. LaMalfa. Yes, they would, see? Yes, they don't stop at 
the Klamath. It does not stop there.
    Ms. Powell. Can you rephrase that question?
    [Laughter.]
    Mr. LaMalfa. You don't have to touch the Klamath. I know 
you don't want to touch the hot potatoes, corporate people 
don't usually want to touch the hot potatoes. But the deal is--
well, coming back to the original question, it costs so much. 
You don't learn that much. Why not get the license as we go, 
and continue to accrue the data, instead of having this painful 
process every year? Are we going to tear out the dams instead 
of having the license? What is the end goal?
    Ms. Powell. I think the end goal is to have something that 
the agencies and the involved members can agree on that is 
acceptable to all.
    Mr. LaMalfa. Acceptable to which all?
    Ms. Powell. All of the stakeholders who are involved in the 
process.
    Mr. LaMalfa. There are a lot of stakeholders that do not 
live in the area that do not care about the cost of 
electricity, either. The stakeholders are the ones that are 
actually the owners. That sounds like I have to stop. We will 
see you again.
    Dr. Gosar. The witness can answer. Do you have an answer?
    Ms. Powell. The stakeholders who were involved are the 
agencies. Other stakeholders end up being involved in the non-
government organizations, the recreationalists. There are a lot 
of interests that are around the re-licensings of these 
facilities that end up determining licensing conditions.
    Mr. LaMalfa. And power users and workers outnumber all of 
them by miles.
    Dr. Gosar. OK, I thank the gentleman. I now recognize the 
gentlewoman from California, Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman. I will try to not ask 
a gotcha question, just a follow-up from testimony that I 
heard.
    Ms. Matlock, in your testimony, the project that you were 
describing that should have been approved within 6 years, and 
you went 8 years and still had not received an approval, you 
abandoned that project. What is Plan B for you?
    Ms. Matlock. Thank you for asking, because I actually need 
to clarify. It was 6 months. It is a pilot process, so it was 
supposed to be permitted in 6 months, and it took 8 years.
    It is pretty disappointing, because this was a clean, 
renewable, brand new tidal energy. What other public utility 
district in the Nation do you know of that is doing R&D? This 
is not really something that is typical, but we believe in it, 
and we wanted local power. We worked with the tribes, we worked 
with endless committees. The future is very uncertain for that. 
We were heartbroken and ended the project.
    Mrs. Torres. So the project just ended and there is no 
alternative plan to move anything else forward?
    Ms. Matlock. Not on tidal energy at this point. We are now 
looking to drill for geothermal and battery storage, but that 
is also super-expensive. We continue to look at other sources.
    Mrs. Torres. Toward the end of your testimony you mentioned 
something about storage.
    Ms. Matlock. Yes.
    Mrs. Torres. Can you expand a little bit on that?
    Ms. Matlock. Yes. We are investigating, modernizing, and 
standardizing energy storage systems, such that you can use any 
type of technology of battery and install it into our 
substations. And that ultimately will reduce the cost of 
batteries.
    We are working with two different technologies, and it is a 
plug-and-play, where we have one substation, several different 
types of technologies, but you cannot just bring it in, these 
are big container-ship-size batteries. And because the 
interface communications between the battery and the utilities 
are standardized, it again reduces time and money.
    So our efforts, again--a public utility trying to do an R&D 
project, breaking the mold, maybe in the future working with 
Tesla on these things, we would like to try to change the 
future of that, as well.
    And again, just to continue with that, we are using that as 
a balancing ability and maybe peak shaving. There are several 
different ways that you can do batteries, and we are 
investigating that, as well.
    Mrs. Torres. Well, I want to encourage you to continue 
that. And I also want to applaud your efforts in investing in 
R&D. I think that that is really important. And you are 
correct, you don't hear a lot of that coming from the industry.
    In my district, prior to the recession, there was a big 
push to do solar panels on warehouses. So, we have extremely 
large buildings that are utilized for the goods movement. And 
companies were moving toward that effort to not only lease the 
ground for the purpose of building a warehouse, but also lease 
the rooftops for the purpose of adding solar panels to power 
the warehouse and all of the equipment in there, and provide 
some energy back into the grid.
    So, to the extent that we can do more of that, I also want 
to encourage my colleagues to push that type of development 
across their districts. Thank you.
    Dr. Gosar. I thank the gentlewoman and I will now recognize 
the gentleman from California, Mr. Denham, for 5 minutes.
    Mr. Denham. Thank you.
    Mr. Boyd, Turlock Irrigation District tried for 3 years to 
get the permit for the second predation study which was ordered 
by both FERC and the resource agencies, but were not approved 
for permits. Did the agency give any reason why the permits 
were not approved?
    Mr. Boyd. Thank you, Congressman Denham. In 2012, the 
districts, as part of re-licensing process, performed a 
predation study on the Tuolumne River. The results of that 
showed that up to 93 percent of juvenile out-migrating salmon 
are consumed by non-native predatory species.
    Once the results of that study were in, resource agencies 
requested an additional study that looked at the migratory 
habits of predatory species, looked at the river for predation, 
and you are correct, we tried for 2 years to get the permit. 
The first 2 years drought was cited as the reason for not 
getting a permit. And this past year, when we applied for the 
fish to do the study, we were told the study had no scientific 
merit.
    Mr. Denham. So the study has no scientific merit, but 
government agencies are requiring you to do the study?
    Mr. Boyd. Correct. The agency has requested the study. In 
consultation with the agency, we developed a study plan. FERC 
ordered the study, the districts agreed to do it. It had a cost 
of over $1 million, I believe. And then the permitting agency 
would not give us the permit in order to do the study.
    Mr. Denham. Seems political to me. It seems like some 
people just do not want the information that comes back from 
these studies, because you would actually save the fish that 
are threatened and endangered that are getting eaten by 
predator fish. Those that want to shut our water off and create 
this high unemployment in the Central Valley don't want to have 
the study. That is my own political view.
    I understand one of the frustrations with working with 
resource agencies over the last 7 years is the lack of 
engagement and transparency throughout the process. Can you 
give me some examples of that?
    Mr. Boyd. Sure, I would be happy to. One quick one that 
comes to mind is possible fish passage on the Don Pedro 
Project. FERC has ordered the districts to do studies related 
to fish passage. National Marine Fisheries Services are also 
doing their own studies upstream of the project. I am afraid we 
are going to end up with a dual record, and to date nobody has 
been able to tell us what the decisionmaking criteria is 
related to reintroduction or fish passage in Section 18 
prescriptions.
    So kind of dovetailing with my testimony, we are held to a 
high standard of accountability, and we ask that the agencies 
be held to that same standard.
    Mr. Denham. It seems like there is unequal bargaining power 
between the licensees and the resource agencies, oftentimes 
holding up the permitting process and costing you money in the 
process, moving forward on some of these.
    Do you feel that there is a significant power disadvantage 
in a negotiation between you and some of these agencies that 
are not quite as transparent as we would expect government 
agencies to be?
    Mr. Boyd. Based on my experience, as we sit down and try to 
negotiate creative solutions to improve habitat in the fishery, 
there are some agencies that are reticent to talk about 
creative solutions that might be different than what they could 
get through a mandatory condition; and I do believe that that 
keeps them from coming to the table in an open way.
    Mr. Denham. Thank you. In my opinion, there are huge 
transparency issues with government agencies. And you are put 
in a position where you are negotiating with yourself. You are 
also put in a position where you are not only forced to expend 
money and see huge delays, but are not able to save the fish 
and meet the goals that are being pushed upon you.
    If we are trying to save the threatened and endangered 
species, we ought to at least be able to do the studies that 
would back up or maybe prove the Ranking Member's point that 
maybe this just is not an issue. If studies show that predation 
is between 93 and 98 percent of the factor of killing these 
threatened and endangered species, we ought to at least be able 
to have the sound science to be able to address that. If we are 
going to address fish populations, we should do it in a 
collective, transparent way. I yield back.
    Dr. Gosar. I thank the gentleman and I recognize the 
gentleman from California, Mr. Costa.
    Mr. Costa. All right. Thank you, Mr. Chairman and Ranking 
Member. I don't know how long I will go here, because of the 
votes.
    Let me make an editorial comment--I support all of the 
energy tools in our energy toolbox, including renewable sources 
of energy. I consider hydropower a renewable source of energy. 
Unfortunately, it is not politically correct with some of my 
friends to consider it a renewable source of energy.
    Having said that, Mr. Boyd, Turlock Irrigation District's 
energy resources are very diverse, as you noted in your 
testimony. You have large hydropower, small hydropower, natural 
gas, and wind. Can you compare me the time it took to get the 
approval rating and the permitting process to construct your 
project called Almond 2, or your 174 megawatt natural gas 
project, versus your current experience in trying to re-license 
your Don Pedro hydropower project?
    Mr. Boyd. Thank you. I would be happy to.
    Mr. Costa. Quickly.
    Mr. Boyd. As I mentioned, we are 7 years into the re-
licensing process for Don Pedro. For the project you mentioned, 
Almond 2, it was 1999 to 2012, I believe, 3 years to site, 
permit, and construct the plant.
    Mr. Costa. Three years versus 7 years and you are still 
going.
    Mr. Boyd. Correct.
    Mr. Costa. Something has to be wrong with that part of the 
process, I would think.
    I understand under current law resources agencies are to 
consider power and non-power benefits. In your experience, do 
they? Also, do these agencies have the authority to make these 
decisions? And how do they make it, since you are 7 years into 
the process?
    Mr. Boyd. I believe, under the Energy Policy Act, FERC 
certainly has the jurisdiction to consider power and non-power 
benefits of the project. I do not believe resource agencies are 
under that same jurisdiction.
    Mr. Costa. OK. Ms. Powell, I have heard claims by some 
groups that pending legislation before Congress alters the 
Federal Power Act, including roles that Federal agencies play 
in licensing and re-licensing in this process. In fact, I have 
heard claims that legislation would allow the hydropower 
licensee to harm fish, wildlife, public lands, Indian 
reservations with impunity.
    Do any of these recommendations that you have outlined in 
your testimony do such a thing?
    Ms. Powell. PG&E believes that our country's natural 
resources need to be protected.
    Mr. Costa. So you don't want to harm fish?
    Ms. Powell. We don't want to harm fish.
    Mr. Costa. You don't want to harm public lands or Indian 
reservations?
    Ms. Powell. We do not.
    Mr. Costa. You have a responsibility to deal with all of 
these issues, right?
    Ms. Powell. We do.
    Mr. Costa. My last question--what is the financial impact 
on the end power to the consumer related to a re-licensing 
project, in your estimation, given your experience?
    Ms. Powell. In the last 10 projects that we have re-
licensed, which involved existing operational facilities, fully 
constructed facilities, the regulatory process for the re-
licensing took between 7 and 28 years to complete, the costs 
ranging from $2 million to $20 million. That was only to get 
through the re-licensing. After that, we were required to 
expend funds to implement the new license conditions.
    Mr. Costa. All of those costs pass on to the ratepayer?
    Ms. Powell. Yes, they do.
    Mr. Costa. Well, thank you very much. We will submit 
additional questions, Mr. Chairman.
    And thank you for continuing to try to make sure that 
energy remains viable and cost effective for American 
consumers.
    Ms. Powell. Thank you.
    Dr. Gosar. I thank the gentleman. I would like to thank the 
witnesses for their valuable testimony. They called votes, so 
we have about a minute left.
    Members of the subcommittee may have additional questions 
for the witnesses, and we will ask you to respond to those in 
writing. The hearing record will be open for 10 business days 
to receive their responses.
    If there is no further business, without objection the 
subcommittee stands adjourned.
    Now you understand what Arizona does between the California 
firing squad.
    Meeting adjourned.

    [Whereupon, at 3:23 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
